<html>
<title> - MIDWEST JOBS PICTURE: STRATEGIES TO REBUILD COMMUNITIES (PART II)</title>
<body><pre>[Senate Hearing 110-986]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-986
 
   MIDWEST JOBS PICTURE: STRATEGIES TO REBUILD COMMUNITIES (PART II)

=======================================================================


                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING THE MIDWEST JOBS PICTURE, FOCUSING ON STRATEGIES TO REBUILD 
                         COMMUNITIES (PART II)

                               __________

                      OCTOBER 8, 2008 (DAYTON, OH)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
54-534                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

        Ilyse Schuman, Minority Staff Director and Chief Counsel

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                       WEDNESDAY, OCTOBER 8, 2008

                                                                   Page
Johnson, Steven, Ph.D., President, Sinclair Community College, 
  Dayton, OH.....................................................     1
Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio, 
  opening statement..............................................     2
McLin, Hon. Rhine, Mayor, Dayton, OH.............................     5
    Prepared statement...........................................     7
Mead, Dudley, Worker, Dayton, OH.................................     8
    Prepared statement...........................................    10
Richardson, Tiffani, Worker, Dayton, OH..........................    13
Honeck, Jon, Ph.D., Policy Analyst, Policy Matters Ohio, 
  Columbus, OH...................................................    14
    Prepared statement...........................................    16
Edwards, Stacia, Director, Regional Workforce Transformation 
  Consortium, Sinclair Community College, Dayton, OH.............    19
    Prepared statement...........................................    21

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Enzi, Hon. Michael B., a U.S. Senator from the State of 
      Wyoming, prepared statement................................    36

                                 (iii)



   MIDWEST JOBS PICTURE: STRATEGIES TO REBUILD COMMUNITIES (PART II)

                              ----------                              


                       WEDNESDAY, OCTOBER 8, 2008

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                        Dayton, OH.
    The committee met, pursuant to notice, at 3:00 p.m. at 
Sinclair Community College, Charity Earley Auditorium, Room 
172, 444 West Third Street, Dayton, OH, Hon. Sherrod Brown, 
presiding.
    Present: Senator Brown.

        STATEMENT OF STEVEN JOHNSON, PH.D., PRESIDENT, 
                   SINCLAIR COMMUNITY COLLEGE

    Mr. Johnson. I am Steven Johnson, president of Sinclair 
Community College. I want to welcome all of you here for this 
hearing.
    It is certainly a very special occasion for us. U.S. Senate 
hearings certainly are an everyday occurrence in Washington, 
DC, on Capitol Hill. But they are certainly not an everyday 
occurrence for us in Dayton, OH.
    It is great to have Senator Sherrod Brown here with us 
today, bringing to us this hearing and hearing from us our 
concerns, our issues, our ideas, and our opportunities as we 
look at the jobs challenge and the economic challenges that we 
are, indeed, facing.
    I was asked to welcome you this afternoon, and it is a 
pleasure to do so. It is interesting times we are living in, 
important times we are living in. Challenges and opportunities 
abound. It is interesting how both seem to come at you in big 
tidal waves. And so, with these challenges and opportunities, 
we certainly need to be on our feet and on our toes in order to 
embrace those.
    I am so pleased that Senator Sherrod Brown is one of those 
very active leaders who comes to us and not only makes us come 
to him. He has held well over 100 meetings and hearings here in 
the State of Ohio since being Senator. And that is not over 
years and years and years and years. He has been a U.S. Senator 
now for a couple of years.
    I will remind you that Senator Brown sits on the Health, 
Education, Labor, and Pensions Committee and on the Banking 
Committee. He is the first Ohio Senator, which--this is, 
indeed, mind-boggling--the first Ohio Senator in 40 years to 
sit on the Agriculture and Nutrition Committee and the first 
Ohio Senator to serve a full term on the Veterans Committee.
    As a U.S. Senator, he has held 110 roundtables around the 
State with farmers, veterans, health professionals, small 
business owners, community leaders, teachers, and bankers. He 
began his career as an elected leader by being elected to the 
Ohio House of Representatives in 1974. He served as Ohio's 
Secretary of State from 1983 to 1990, leading the effort to 
what the Washington Post calls the most successful voter 
registration in the country.
    As a congressman from the 13th District from 1993 to 2006--
U.S. congressman--he earned a reputation as an independent 
voice for ordinary Ohioans and middle class families, a man of 
principle who has made a career of standing up to special 
interests who have too much influence in Washington.
    Fifteen years ago--and I think this is important to 
amplify, 15 years ago, Sherrod pledged not to take the 
congressional health plan until every Ohioan has healthcare 
coverage. To this day, he refuses the congressional health 
plan.
    A native of Mansfield, OH, Senator Brown is a graduate of 
Yale University and earned a Master's degree from Ohio State 
University in education and public administration.
    Not yet 2 years ago, Senator Brown was Sinclair Community 
College's commencement speaker. I remember that day very, very 
well. He went to great lengths to be here at Sinclair to be our 
commencement speaker. It was not easy, given his schedule, to 
do so. But he did it. He made it.
    He was one of the best commencement speakers ever, and then 
he went a further step during the commencement ceremony to make 
sure that he shook the hand of each and every graduate, each 
and every graduate, because each and every one of them means 
something to the Senator.
    Thank you for being with us today.
    Would you please welcome Senator Sherrod Brown.
    [Applause.]

                   Opening Statement of Senator Brown

    Senator Brown. Dr. Johnson, thank you very much. Thank you 
for your terrific leadership at one of the great educational 
institutions in this State.
    I say that not just when I am at Sinclair, but as President 
Johnson knows, I talk about Sinclair all over the State because 
of the terrific things that I know you are doing from my being 
here several times to the stories that Brooke and Jack Dover 
and Ed Roberts and so many others on my staff and around the 
State talk to me about.
    So thank you very, very much.
    One of the great things about a community college 
graduation--and many of you, I know, are very active at the 
school. Some of you are students here. If you have never been 
to a community college graduation, it is the greatest event 
because it is full of students who are first in their family to 
go to college. It is full of students walking in during 
commencement holding a baby or having a small child with them.
    You see three or four generations. Often, it is the student 
and parents and grandparents and kids. It is people that have 
been in and out of school often for several years and have 
gotten things together and are going out to change the world.
    When you stand there and get to meet the students as they 
graduate one by one, the one group of students I remember the 
most were the dental hygienists. On their mortarboards, they 
had a tooth or something.
    But the other thing about this, I remember talking to some 
of these students. I guess it was May, 18 months or so ago, and 
I remember how many of them had jobs. I mean, a huge percentage 
of them that graduated from here, upwards of 90 percent 
graduated from Sinclair, and have jobs in this area and really 
are an engine of growth.
    With all that has happened, Mayor Johnson, the city of 
Moraine--well, all over this region--and Mayor Raizk, the city 
of Wilmington, this community college is so important. That is 
why we decided to do the hearing here. That is why I thought 
there was no better place than Miami Valley, or really no 
better place in southwest Ohio, to talk about jobs and what we 
need to do to get our economy back on track and to do this 
hearing than at Sinclair Community College.
    So thank you for the introduction, and we will get started.
    This is an official hearing of the Health, Education, 
Labor, and Pensions Committee. This is the second of two I am 
doing in the State. We did one earlier today at the University 
of Toledo. This is the first time I have really done a 
committee hearing in the State from that committee.
    Senator Kennedy is Chairman of the committee. Senator Enzi 
from Wyoming is the Ranking Member. Kelly Hastings, if she 
would put her hand up, represents Senator Enzi and the minority 
staff. So thank you for coming. It is her first trip to Dayton. 
She grew up in Virginia and works for a Senator from Wyoming, 
and this is close enough to half way in between, I guess.
    Thank you.
    I want to recognize a handful of elected officials here. 
Mayor Raizk from Wilmington and Mayor Johnson from the city of 
Moraine.
    Thank you for being here.
    Andre Harper is here, representing Senator Voinovich. He is 
in the front row.
    Nan Whaley from the city of Dayton is here. She is the city 
commissioner. Nan, welcome.
    Two of our county commissioners--Judy Dodge, thank you, and 
Debbie Lieberman, thank you for being here. I also say about 
the county commissioners in Dayton how well they work together. 
Sometimes when I am in other counties, I just don't say 
anything about the county commissioners because they don't 
always work so well together. So thank you for that.
    After a short opening statement from me, we will hear from 
our five witnesses who represent very differing views, but we 
are really on the same team on so many of these issues. Each of 
them will speak for about 5 minutes, and then I will ask a 
series of questions.
    The hearing will last about an hour and a half. I will stay 
around and hopefully the panel will, too, if you have questions 
or want to discuss anything with me or with my staff 
afterwards.
    Chris Slevin is here from my Washington office. He works on 
labor and trade issues for us. He has worked on a lot of issues 
fighting for the middle class, as well, as a part of the work 
that the committee does.
    Brooke Hill runs our Cincinnati office and works in this 
region of the State. Many of you know Brooke.
    Jack Dover and Angela and Ed Roberts are also here. Angela 
works pretty much all the time in Dayton.
    A strong middle class is an essential foundation of our 
prosperity and our stability. Middle class families across the 
country, as we know, are in a moment of great challenge and of 
great potential. Challenges for the economic conditions forced 
upon them by deregulation, by unfair trade deals, by wrong-
headed tax policies. Potential on account of our Nation's work 
ethic and our Nation's ingenuity, and nowhere better is that 
illustrated than, I think, in Dayton, OH, and its history.
    This is a crucial time for the middle class. This past 
Friday, the Labor Department reported for the 9th consecutive 
month the country has lost jobs. In September, 159,000 jobs 
were eliminated from payrolls, the highest number in 5 years.
    Ohio's 7.4 percent unemployment rate hit a 15-year high 
this summer. Even prior to the steep downturn, Ohio still had 
hundreds of thousands fewer jobs than it had prior to the last 
recession. Across the country, 9.4 million workers are 
unemployed and looking for work, 2.2 million more than a year 
ago, the highest figure recorded since December 1992.
    Two million people have been jobless for more than 6 
months. Nearly 6.1 million people are working part-time because 
they either can't find full-time work or because slack business 
conditions have led to fewer hours and, of course, to less pay.
    This week, it is estimated that 800,000 Americans will 
exhaust their unemployment insurance, including 22,000 people 
in Ohio and some number of them in the Miami Valley. Last week, 
many of us in Congress fought to extend unemployment insurance 
for workers. The House passed an extension overwhelmingly, 368-
28. Unfortunately, Senate Republicans blocked it, and we 
weren't able to pass it.
    Because Congress couldn't finish the bill, more than 
800,000 unemployed people in the United States will stop 
getting their much-needed unemployment checks. That number will 
grow to 1.1 million by the end of the year. We return to 
session in November, and I hope we can--it is going to one of 
my top priorities. I know it is one of Senator Kennedy's and 
many others. It is a top priority to extend benefits at that 
time.
    Whether the country is officially in a recession or not, we 
can say with certainty that Ohio's middle class is in a 
recession. But Dayton and the Midwest are also ripe for 
revival.
    A strong workforce, Dayton's access to transportation 
lines, its locations, this community college, Wright-Patterson 
Air Force Base, the entrepreneurial spirit of Dayton are all 
assets for new manufacturing and new industries. Sinclair 
Community College epitomizes the energy and hard work that can 
revitalize this State.
    How can the Federal Government, we should ask, play a role 
to help reposition Ohio for a new era of prosperity? What role 
can rapid response networks play in getting workers and 
communities one step ahead of the curve? What skills and 
training can be enhanced to meet the demands of new industries? 
What investments in infrastructure and manufacturing can help 
communities rebuild?
    These are the questions our witnesses are helping us answer 
today. I look forward to their remarks and to our discussion.
    So I will begin the introductions. I want to introduce the 
five of you, and then, Mayor, you can start. But let me 
introduce each of you.
    Mayor Rhine McLin is the Mayor of Dayton. Rhine has been in 
office 7 years, having previously served in the Ohio Senate and 
Ohio House of Representatives, where I first knew her and her 
sister and her father. In 1994, she became the first African-
American woman to serve in the Ohio Senate.
    Dudley Mead is another Dayton native. He is a pilot for 
ASTAR. He faces possible job loss due to DHL's proposed deal 
with UPS. And as he knows and the mayor and all of us have been 
working hard with Congressman Turner and all to do all we can 
to try to at least in part fix that situation.
    Tiffani Richardson is a Dayton native. She worked for 
Delphi until 2 years ago. She is currently attending University 
of Phoenix Online school.
    Jon Honeck writes about workforce development, 
international trade, taxation, economic development policy for 
Policy Matters. Jon has a Ph.D. in political science from the 
University of Wisconsin in Madison.
    Stacia Edwards is director of the Regional Workforce 
Transformation Consortium here at Sinclair. Prior to directing 
the consortium, she spent 22 years at Wright State, most 
recently as assistant dean of the College of Science and Math. 
She has degrees from Hanover College and Indiana University.
    Mayor McLin, would you start? Give us 5 minutes or so, and 
then we will start the questions after the 5 panelists.

        STATEMENT OF HON. RHINE McLIN, MAYOR, DAYTON, OH

    Ms. McLin. Thank you. Thank for you inviting me to speak 
this afternoon on behalf of the city of Dayton.
    I especially want to thank Senator Brown for organizing 
today's event and giving us the opportunity to express our 
concerns and suggestions for stimulating economic growth 
throughout the Dayton region. Certainly, the events that have 
transpired at the national level over the past few weeks 
regarding the Wall Street crisis only deepen the concern and 
anxiety we feel locally about our economic future.
    As I talk to my fellow mayors from around the country and 
around the area, we share the same frustrations about how to 
lead our cities forward with so many demands for services and 
so little resources to go around. A 10-point plan developed by 
the U.S. Conference of Mayors outlines our priority needs, some 
of which are directly related to our discussion today, 
including the need to supplement fading Community Development 
Block Grant dollars, increasing Federal funds to rebuild and 
modernize our infrastructure, and creating a more competitive 
workforce for our young people and those displaced by lost 
manufacturing jobs.
    In Dayton and the region today, there is no more pressing 
issue than the retention and creation of good jobs for our 
citizens and for our future. Our viability and quality of life 
as a city and region depend on it. Yet, as the city of Dayton 
struggles to avoid a $13 million projected budget deficit for 
next year, we find it difficult to offer the programs and 
services we know are needed to stimulate economic growth and to 
create more jobs.
    Certainly, we can point to recent economic development 
successes that are encouraging for the Dayton area. In the 
city, we are witnessing investments by CareSource and our other 
major healthcare institutions. The University of Dayton is a 
partner in the re-
development of prime land around its campus.
    The BRAC process occurring through the Wright-Patterson Air 
Force Base will create new high-paying jobs for the region. The 
development of Tech Town and related high-tech companies is 
helping with our transition from a heavy manufacturing economy 
to one based on new and emerging technologies.
    However, this transition, like any change, comes with a 
significant level of pain and difficulty. Dayton and the region 
have experienced the loss of retail businesses, manufacturing 
jobs, and corporate offices that often accompany such 
transformations.
    We understand that our economic challenges will not 
disappear overnight. There is much work to be done to retain 
and attract high-quality jobs and to educate our youth and 
retain the workforce for tomorrow's careers. Sinclair plays a 
vital role in that effort.
    As mayor of a city that is facing the challenges firsthand, 
I have talked to more people than I care to admit who have been 
affected by the various job closures that have hit Dayton and 
the surrounding region in the past few years. Laid-off workers 
from such traditional community anchors as General Motors, 
Delphi, and their related suppliers tell the same story of 
frustration and fear.
    Many Dayton residents are even being affected by the DHL 
announcement to downsize its operation in Wilmington, OH. We 
have many residents who take buses to Wilmington each day to 
work the busy nightshift. These workers also express the same 
frustration and fear. Frustration that they dedicated their 
careers to helping these companies succeed and fear that their 
current skill sets will not be adequate to fill future jobs in 
the changing economy.
    So what can be done to support these men and women who have 
been or soon will be hit by the economic challenges today? 
First, we urge legislators in Washington, DC, to follow through 
on efforts to extend unemployment insurance. That is one way to 
assist workers and their families as we enter another winter 
season. Although admittedly a short-term fix, this action would 
do much to help people who are already hurting.
    We also believe that as a large urban city, Dayton has 
needs uniquely different than newer suburban communities. Older 
infrastructure, brownfield remnants, and a population with more 
social service needs combine to create higher hurdles for urban 
cities to overcome.
    At one time, mature cities had the Urban Enterprise Zone 
program to help level the playing field. But now those benefits 
and business incentives are available in almost any community. 
Big cities need special tools and resources to help us deal 
with extra challenges we face.
    We believe that additional National Emergency Grant monies, 
like those recently sought by the Ohio Department of Jobs and 
Family Services from the U.S. Department of Labor, would 
provide valuable aid. These funds would be used to help expand 
the capacity to offer more job and skill training programs for 
displaced workers, especially those from General Motors and 
DHL.
    The ability to retrain and prepare our out-of-work citizens 
for future employment is critical. Such services will help 
workers and their families survive the economic transition as 
we work aggressively to create and offer new job opportunities.
    In addition, Federal resources to invest in local 
infrastructure would help Dayton expedite efforts to clean up 
old brownfield sites and open the way for new business 
development and subsequent job creation. We have benefited from 
such financial assistance in the past for projects like Tech 
Town and other brownfield redevelopment sites.
    But the pace of the funding process can be as frustrating 
as it is complex. While we understand that money and resources 
are tight at every level, without the legislative and financial 
support of the Federal Government, communities across the 
country will continue to suffer or experience delayed 
revitalization success.
    Given the downward spiral of the national economy today, 
the sooner that communities can begin to create and grow jobs 
at the local level, the sooner we can see a rebound on a 
broader, national scale.
    Thank you again for this opportunity to express our 
concerns. We look forward to continued dialogue on how we can 
all work together to protect workers and their families and 
repair and revitalize our local job market.
    Thank you.
    [The prepared statement of Ms. McLin follows:]
               Prepared Statement of the Hon. Rhine McLin
    Thank you for inviting me to speak this afternoon on behalf of the 
city of Dayton. I especially want to thank Senator Brown for organizing 
today's event and giving us the opportunity to express our concerns and 
suggestions for stimulating economic growth throughout the Dayton 
region.
    Certainly the events that have transpired at the national level 
over the past few weeks regarding the Wall Street crisis only deepen 
the concern and anxiety we feel locally about our economic future.
    There is no more pressing issue in Dayton and the region today than 
the retention and creation of good jobs for our citizens and for our 
future. Our viability and quality of life as a city and region depend 
on it.
    Certainly we can point to recent economic development successes 
that are encouraging for the Dayton area. In the city we are witnessing 
investments by CareSource and our other major health care institutions. 
The University of Dayton is a partner in the redevelopment of prime 
land around its campus. The BRAC process occurring through Wright 
Patterson Air Force Base will create new, high-paying jobs for the 
region. And the development of Tech Town and related high-tech 
companies is helping with our transition from a heavy manufacturing 
economy to one based on new and emerging technologies.
    However, this transition, like any change, comes with a significant 
level of pain and difficulty. Dayton and the region have experienced 
the loss of retail businesses, manufacturing jobs, and corporate 
offices that often accompany such transformations.
    We understand that our economic challenges will not disappear 
overnight. There is much work to be done to retain and attract high-
quality jobs, and to educate our youth and retrain the workforce for 
tomorrow's careers.
    As Mayor of a city that is facing the challenges first-hand, I have 
talked to more people than I care to admit who have been affected by 
the various job closures that have hit Dayton and the surrounding 
region in the past few years. Laid-off workers from such traditional 
community anchors as General Motors, Delphi, and their related 
suppliers tell the same story of frustration and fear.
    Many Dayton residents are even being affected by the DHL 
announcement to downsize its operation in Wilmington, OH. We have many 
residents who take buses to Wilmington each day to work the busy night 
shift. These workers also express the same frustration and fear--
frustration that they dedicated their careers to helping these 
companies succeed, and fear that their current skill sets will not be 
adequate to fill future jobs in the changing economy.
    So what can be done to support these men and women who have been or 
soon will be hit by the economic challenges today?
    First, we recommend that unemployment insurance extensions continue 
in order to assist workers and their families as we enter another 
winter season. Although admittedly a short-term fix, this action would 
do much to help people who are already hurting.
    We also believe that as a large urban city, Dayton has needs 
uniquely different than newer, suburban communities. Older 
infrastructure, brownfield remnants and a population with more social 
service needs combine to create higher hurdles for urban cities to 
overcome.
    At one time, mature cities had the Urban Enterprise Zone program to 
help level the playing field, but now those benefits and business 
incentives are available in almost any community. Big cities need 
special tools and resources to help us deal with the extra challenges 
we face.
    We believe that additional National Emergency Grant (NEG) monies, 
like those recently sought by the Ohio Department of Jobs and Family 
Services from the U.S. Department of Labor, would provide valuable aid. 
These funds would be used to help expand the capacity to offer more job 
and skill training programs for displaced workers, especially those 
from General Motors and DHL.
    In addition, Federal resources to invest in local infrastructure 
would help Dayton expedite efforts to clean-up old brownfield sites and 
open the way for new business development and subsequent job creation. 
We have benefited from such financial assistance in the past, but the 
pace of the funding process can be as frustrating as it is complex.
    While we understand that money and resources are tight at every 
level, without the legislative and financial support of the Federal 
Government, communities across the country will continue to suffer, or 
experience delayed revitalization success.
    Given the current condition of the economy, the sooner that 
communities can begin to create and grow jobs at the local level, the 
sooner we can see a rebound on a broader national scale.
    Thank you again for the opportunity to express our concerns. We 
look forward to continued dialogue on how we can all work together to 
protect workers and their families, and repair and revitalize our local 
job market.
    Thank you.

    Senator Brown. Thank you very much, Mayor.
    Mr. Mead, thank you.

          STATEMENT OF DUDLEY MEAD, WORKER, DAYTON, OH

    Mr. Mead. Good afternoon. It is an honor to appear before 
this committee today.
    I would like to begin by saying thank you to Senator Brown 
for holding this important hearing and to Mayor McLin for her 
valuable attention and support as well.
    My name is Dudley Mead. I was born and raised and currently 
live here in Dayton. I have been a professional pilot for 
nearly 30 years. I am quite proud of the rich aviation heritage 
I have inherited from my family, my hometown of Dayton, and the 
State of Ohio.
    Although a longer version of my statement will be entered 
into the record, I would like to summarize my testimony for you 
and answer any questions you might have.
    I am currently employed as an airline pilot by ASTAR Air 
Cargo in Wilmington, OH. ASTAR is one of the two Ohio-based 
airlines that provide airlift services for DHL. As all of you 
are very aware, last May, DHL announced that they would be 
transferring all of their air operations to their main 
competitor, UPS. This will result in the shutdown of ASTAR Air 
Cargo and the termination of all of our 1,000-plus employees.
    This news was absolutely devastating to everyone at ASTAR 
and for the nearly 9,000 other DHL workers and related business 
people who would lose their jobs in southern Ohio because of 
DHL's catastrophic decision. I have firsthand knowledge of 
looming bankruptcies, potential forced relocations, many, many 
home losses, and certain massive financial strife for my co-
workers at ASTAR.
    For myself, this announcement could not have come at a 
worse time. The prospects of finding a comparable job in the 
airline industry are abysmal. The airline industry is rapidly 
contracting, and most of the U.S. airlines are eliminating tens 
of thousands of positions for pilots, mechanics, and other 
employees.
    Well over 5,000 airline pilot jobs will be lost at major 
U.S. airlines this year, not including the additional 1,000 
pilot jobs lost at ASTAR and ABX. Furthermore, the recent 
shutdown of nearly a dozen other domestic airlines has added 
thousands more to the number of airline pilots that are looking 
for jobs today.
    There are, however, foreign airlines that are hiring 
pilots. A move to one of these airlines would require expensive 
retraining and require that I move my family and my earnings to 
some far-away place like Hong Kong or Dubai, which, 
unbelievably, I am now forced to seriously consider.
    I have heard the plans of State and Federal Governments to 
assist employees with education, training, grants, and 
benefits. I applaud this news, although I am loathe to have to 
ask for governmental assistance. Unfortunately, retraining for 
me and virtually all of the other ASTAR pilots will be 
mandatory due to the obsolete aircraft that DHL has had us 
operating for the past 40 years. This training will be 
expensive.
    The primary qualification in the aviation industry is known 
as the ``type rating.'' A type rating is an FAA certificate 
granted to a pilot upon completion of a rigorous training 
regimen in one specific type of aircraft. This training would 
cost $25,000 to $50,000 per rating, depending upon the type of 
aircraft, and will be impossible to afford for many of us due 
to this high cost.
    When I was asked to testify today, I was also asked to 
share my feelings about my pending job loss and offer 
suggestive strategies for recovery from our plight. Quite 
frankly, I am absolutely furious about the path DHL has chosen. 
The single aspect that makes me so apoplectic is that DHL has 
purposefully misled all of us with the obvious sole purpose of 
creating a global monopoly with their former competitor, UPS.
    In June 2007, DHL bought 49 percent of our airline, signed 
an airlift agreement with ASTAR, which expires in the year 
2019. Then, just this past March, DHL was party to and signed 
off on certain aspects of a 4-year contract between ASTAR and 
our pilot group represented by the Airline Pilots Association.
    This merger with UPS will breach both of these contracts 
and destroy thousands of subsequent personal and business 
deals, which were based upon DHL's commitment to fulfill their 
contractual obligations to us.
    Another egregious example of DHL's misrepresentations is 
their stipulation that the air operations are the root cause of 
their massive losses, that the financial improvement is 
contingent upon the transfer of flying to UPS, and that they 
have no other options. DHL has said that their mandatory goal 
of saving $1 billion per year will be achieved only through 
this arrangement with UPS.
    The justification for their failure to consult with the 
State or to entertain alternative proposals from ASTAR and ABX 
was based on their judgment that it was unrealistic that any 
governmental assistance or alternate proposals from their 
primary vendors could bridge this billion-dollar gap.
    It is important to understand that this last claim is 
untrue. A review of a DHL-supplied fact sheet clearly shows 
that the bulk of the improvements that will supposedly lead to 
the $1 billion savings are network reductions and 
rationalizations that can be made no matter who DHL uses to 
supply its lift.
    Working with a single air provider, UPS, is only one of 
many improvements. In reality, the transfer of flying to UPS 
saves only $200 million per year, which could easily be 
achieved if the two carriers were integrated and allowed to 
upgrade their aging aircraft fleet.
    The only possible reason for this incredible subterfuge is 
a clandestine agreement to create a monopolistic empire with 
DHL supplying the international market and UPS supplying the 
domestic market for express parcel delivery. The illegal 
antitrust aspects of this syndicate are utterly outrageous and 
obvious even to the untrained eye.
    Consequently, I implore you to continue your unwavering 
support of the truth in this fiasco. Your tireless efforts will 
uncover the realities that have been so carefully hidden and 
will save thousands, if not tens of thousands of jobs and, 
ultimately, the economy of a huge portion of our great State.
    I am quite certain that I speak for the more than 10,000 
people who are directly impacted by this deal when I say thank 
you from the bottom of our hearts for your determined stand in 
this fight. The incredible magnitude of assistance and 
attention you, Senator Brown, have given to us is recognized by 
everyone and dismissed by none.
    Thank you.
    [The prepared statement of Mr. Mead follows:]
                   Prepared Statement of Dudley Mead
    Good afternoon. It is an honor to appear before this committee 
today. I would like to begin by saying ``thank you'' to Senator Brown 
for holding this important hearing and to Governor Strickland and Mayor 
McLin for their valuable attention and support.
    My name is Dudley Mead. I was born, raised and currently live here 
in Dayton. I have been a professional pilot for nearly 30 years. My 
father, also a Daytonian, was a Colonel in the U.S. Air Force who 
continued to fly as a private pilot after retiring from military 
service. My mother and three of my five siblings are also licensed 
pilots. I am quite proud of the rich aviation heritage I have inherited 
from my family, from my hometown of Dayton, and from the State of Ohio.
    A longer version of my statement will be entered into the record. 
I'd like to simply summarize for you, and answer any questions you 
might have.
    I am currently employed as an airline pilot by ASTAR Air Cargo in 
Wilmington, OH. ASTAR is one of the two Ohio-based airlines that 
provide airlift services to DHL Worldwide Express.
    As all of you are very aware, last May DHL announced that they 
would be transferring ALL of their air operations to their main 
competitor, UPS. The president of ASTAR, John Dasburg, announced to his 
employees that upon the termination of our contract with DHL, he would 
be forced to shut down our airline and lay off all of ASTAR's 1,000-
plus employees.
    This news was absolutely devastating for all ASTAR employees and 
for the nearly 9,000 other DHL workers and related business people who 
would lose their jobs in southern Ohio because of DHL's catastrophic 
decision.
    For myself, this announcement could not have been made at a worse 
time. The prospects of finding a comparable job in the airline industry 
are abysmal. The airline industry is rapidly contracting and most U.S. 
airlines are eliminating tens of thousands of positions for pilots, 
mechanics and other employees.
    A recent survey of the six ``legacy'' airlines in the United States 
shows furloughs or planned furloughs of nearly 4,300 pilots this year. 
Of the 20 ``national'' U.S. airlines only two, Southwest and Virgin, 
plan to hire and half of the remaining 18 plan furloughs for a net loss 
of over a thousand jobs in this group as well. This totals well over 
5,000 jobs lost at legacy and national airlines this year not including 
the additional 1,000 pilot jobs lost at ASTAR and ABX.
    Additionally, the recent failures of several airlines including the 
cargo carriers Gemini and Kitty Hawk, and the passenger carriers 
American Trans Air, Aloha, Skybus, Maxjet and Eos have added several 
thousand more to the number of airline pilots that are also looking for 
jobs.
    Exacerbating this pilot surplus is the recent change to the 
mandatory retirement age for pilots from age 60 to 65, which has slowed 
or completely stopped pilot retirements for the next 5 years. Airlines 
do not need to hire new pilots to replace those who previously would 
have been retiring.
    The proposed merger between UPS and DHL will certainly not create 
jobs for ASTAR pilots at UPS, either. On July 10, UPS spokesman Norman 
Black told the Atlanta Journal Constitution that UPS has no plans to 
hire DHL pilots that lose their jobs. This statement is consistent with 
UPS' past actions.
    When UPS acquired Menlo Worldwide (the successor of Emery Worldwide 
from Dayton) they eliminated all 1,400 jobs at the Dayton International 
Airport and did not hire any of the Emery pilots. When UPS acquired 
Challenge Air Cargo, they failed to transfer any of the jobs from that 
transaction, as well.
    There are airlines that are hiring pilots overseas, however. A move 
to one of these airlines would require expensive retraining and require 
that I move my family--and my earnings--to some far away place like 
Hong Kong or Dubai which, unbelievably, I am actually considering.
    Even if the domestic airline industry were to improve and begin 
hiring large numbers of pilots, those of us who are losing our careers 
would have to start over in an entry-level position. For example, even 
though I am a pilot with over 12 years of seniority, I would have to 
start over as a first year pilot with first year status and pay at 
another airline. Starting over will be very difficult and, indeed, may 
not be possible for many of our pilots who's average age is 49 years 
old.
    Other than Southwest Airlines, which plans to hire only 100 or 200 
additional pilots this year, none of the handful of other airlines in 
the United States offer salaries that come close to matching those of 
the Legacy carriers, or the cargo carriers, ASTAR, ABX, Fedex and UPS.
    Were I able to get hired despite these difficult circumstances, 
first year pay would start at around $21 an hour--which represents an 
85 percent pay cut for me--and I would not regain my current salary 
level for at least 10 years if at all.
    I have heard of the plans of the State and Federal Governments to 
assist employees with education and training grants and benefits. I 
applaud this news, although I am loath to have to ask for governmental 
assistance.
    Unfortunately, retraining for me and virtually all of the other 
ASTAR pilots will be mandatory due to the fact that DHL never upgraded 
our fleet to more modern aircraft. The airliners at ASTAR have an 
average age of around 30 years and are not operated by virtually any 
other airline in the United States.
    The training required to allow ASTAR pilots to be competitive in 
this job market will be expensive. The primary qualification in the 
aviation industry is the ``Type Rating.'' A Type Rating is an FAA 
certificate granted to a pilot upon completion of a rigorous training 
regimen in one specific type of aircraft. This training would cost 
$25,000 to $50,000 per rating depending upon the type of aircraft and 
will be impossible to afford for many of us due to this high cost.
    When I was asked to testify today, I was also asked to share my 
feelings about my pending job loss. To put it succinctly: I AM 
ABSOLUTELY FURIOUS!
    The thing that makes me so apoplectic is that DHL has purposefully 
misled their employees, their vendors, the affected communities, the 
worldwide media, and our government all in the interest of creating a 
global monopoly with UPS.
    In my testimony submitted for the record, I cite some of the more 
egregious examples of DHL's misrepresentations.
    A fact sheet distributed by DHL representatives at recent 
congressional hearings, cross-checked with the public records of the 
costs of doing business with ASTAR and ABX, clearly show that the air 
operations are absolutely NOT the cause of the massive losses DHL 
purports to have incurred in the United States. Nor are the air 
operations at UPS going to offer the $1 billion savings that DHL 
claims.
    DHL has said that their mandatory goal of saving $1 billion will be 
achieved only through its arrangement with UPS. The justification of 
their failure to consult with the State, or to entertain alternative 
proposals was based on their judgment that it was unrealistic that any 
assistance by the State or proposals from ASTAR or ABX could bridge 
this billion dollar gap. It is important to understand that this last 
claim is untrue.
    The air operation costs to DHL from the ASTAR and ABX AXMI 
agreements annually run approximately $550 million and $650 million, 
respectively (including fuel costs), for a total of $1.2 billion. With 
an advertised cost of $1 billion to have UPS fly DHL freight, it is 
clear that the transfer of the air ops will, at best, save $200 
million--a cost which could be easily recouped either by the merger of 
ASTAR and ABX, the renegotiation of the ASTAR and ABX contracts, the 
introduction of more modern and fuel efficient aircraft, or a host of 
other aggressive cost cutting measures.
    A review of the DHL supplied fact sheet clearly shows that the bulk 
of the improvements that will supposedly lead to the $1 billion savings 
are network reductions and rationalizations which can be made no matter 
who DHL uses to supply lift. Working with a single air provider--UPS--
is only one of many improvements. Nevertheless, DHL has given the 
impression that the entire financial improvement is contingent on this 
transfer of flying. In reality, the transfer of flying to UPS saves 
only $200 million per year.
    However, you will also note that DHL absorbs $2 billion in one-time 
implementation costs. Therefore, over the course of the 10-year 
proposed block space agreement DHL saves $2 billion, but spends $2 
billion in one time implementation costs. Even these savings are 
illusory because they have experienced a dramatic loss in volume and 
revenue simply as a result of announcing the deal.
    The most basic point, though, is that neither the State nor the 
incumbent vendors have to bridge a billion dollar a year gap in order 
to compete; they simply have to save $200 million, a more than 
realistic figure, especially if the two carriers are integrated.
    I believe this perspective is important because DHL's primary 
defense is that it cannot continue to sustain the losses it is 
experiencing. No one can argue with this, but the fact is that the 
transfer of flying does nothing to stem the losses.
    I believe that this information is the ``smoking gun'' which 
clearly shows the construction of a false foundation upon which DHL has 
built their argument for the elimination of their entire U.S. air 
operation and the resulting devastation of Wilmington, OH and the 
economy of southwest Ohio.
    The only possible reason for this incredible subterfuge is a 
clandestine agreement to create a monopolistic empire with DHL 
supplying the international market for express parcel delivery and UPS 
operating the domestic U.S. market. The illegal antitrust aspects of 
this syndicate are utterly outrageous and obvious.
    I implore you to continue your unwavering pursuit of the truth in 
this fiasco. Your tireless efforts will uncover the realities that have 
been so carefully hidden and will save thousands of jobs and, 
ultimately, the economy of a huge portion of our great State.
    I am quite certain that I speak for the more than 10,000 people who 
are impacted by this deal when I say ``Thank You'' from the bottom of 
our hearts for your determined stand in this fight. The incredible 
magnitude of assistance and attention you have given to us is 
recognized by everyone and dismissed by none.
    Thank you.

    Senator Brown. Thank you very much, Mr. Mead.
    Ms. Richardson, do you prefer Richardson Gipson or just 
Richardson?
    Ms. Richardson. Just Richardson.
    Senator Brown. Richardson, OK. Thanks for joining us.

      STATEMENT OF TIFFANI RICHARDSON, WORKER, DAYTON, OH

    Ms. Richardson. Thank you. Thank you, Senator Brown, for 
holding this hearing.
    Hello, my name is Tiffani Richardson, and I am a single 
mother of one daughter, Taylor, who is 12. I graduated from 
Fairmont High School in 1989. I always wanted to work for 
General Motors because my family worked there.
    I started there in 1990 and did not look back. I thought it 
was the best job anyone could ever have. I had job security, 
insurance, strong union, excellent wages, and I could retire 
from there. Two years ago, I never thought my job security 
would ever end. Delphi told us that we didn't have a choice, 
that we would either take the buyout or go down with the 
company.
    I decided to take the buyout. We were told that we were 
going to get $140,000. After taxes, we got anywhere from 
$80,000 to $92,000. They didn't tell us that we would owe more 
than $10,000 to $20,000 in taxes because they did not take out 
enough when they gave us our money. How is that? I think that 
Delphi should pay my tax bill. How can I pay my tax bill when I 
have no money?
    Then Delphi told us that we could file for unemployment. 
This was a lie. Delphi told them that our buyout money was our 
salary for 3 years. That is not true. I worked for Delphi for 
16 years and I am not eligible for unemployment benefits for 3 
years? If I get laid off from a job before April 2009 when 
unemployment says that I am eligible, what am I to do?
    Then I decided to go back to school because Delphi told us 
they would pay. Not true. They would pay only if we were 
getting another trade, either HVAC or in the medical industry. 
The Career Transition Center is no help either. The only thing 
that I wanted to do was just to get back in the workplace. That 
is all they wanted to do, which was just supplement us and put 
us back in to what we knew best.
    I stopped going and decided to do everything on my own. 
Someone told me about the Dayton Urban League being a good 
place to look for a job. I talked to a lady named Ms. Theresa 
Lane, who is an outstanding job developer and helped me get 
into the program I applied for. I decided to intern with 
Americorps. I give 1,700 hours of service for 1 year. The 
reason I decided to do all of this is to get an educational 
award for school for $4,700.
    I only make $6.15 an hour. I am currently on welfare. I 
receive food stamps, medical, and cash benefits. How do you go 
from making $25 an hour down to $6.15? You do the math.
    Right now, I am attending University of Phoenix Online. I 
am getting my bachelors of science in communications. I will 
graduate next year in December 2009. Right now, my grade point 
average is 3.0.
    My life has changed so much. I had to pull my daughter out 
of private school and send her to public school. It is a 
struggle for me to put gas in my truck every week. Sometimes I 
ride the bus just because I have no gas. I don't know the last 
time I bought myself something that I needed. I just try to pay 
my mortgage, electric, gas, car note, and insurance. And after 
all that, I have nothing left.
    What activities can I do with my daughter? Nothing. I don't 
know when is the last time my daughter and I had a family 
outing. Either I have no gas or I have no money. It is very 
stressful having to tell your child that you can't do something 
because you have no money.
    I would like to see the Federal Government look into this 
and try to help us. I would like them to look into our back 
taxes that we have to pay, unemployment benefits that are owed 
to us, and schooling that we are eligible for.
    Thank you for listening to my story, and I hope my story 
can help.
    Senator Brown. Thank you very, very much.
    Mr. Honeck.

STATEMENT OF JON HONECK, PH.D., POLICY ANALYST, POLICY MATTERS 
                       OHIO, COLUMBUS, OH

    Mr. Honeck. First, I want to extend my thanks to Senator 
Brown and the Senate Committee on Health, Education, Labor, and 
Pensions for the invitation to speak this afternoon. It is a 
pleasure to be here to present the views of Policy Matters Ohio 
on strategies that can help Ohio and other Midwestern States 
overcome some of their current economic challenges.
    No one has all the answers, but there are some realistic 
actions that we can take now. Federal policy can make a huge 
difference in helping Midwestern States make the transition to 
a healthy economy, especially by improving programs to help 
dislocated workers change occupations and enter new economic 
sectors.
    One of the most important actions we must take is to 
modernize unemployment insurance for the 21st century to bring 
more people into the system. Ohio's unemployment insurance 
system has both structural and financial problems and poor 
benefit coverage, problems that also occur in other States. The 
Federal Government should seize this opportunity to offer an 
historic bargain to the States that would help them with their 
financial crisis in return for fundamental reforms to 
eligibility.
    The House of Representatives last year approved House bill 
3920 which include a port of change that would begin to address 
the issue. The Senate should approve Senate bill 1871, which 
further expands upon the House bill.
    Poor benefit coverage is due, in part, to eligibility rules 
that are tailored to full-time, year-round work. But full-time 
work is no longer the norm for many people. Some people choose 
to work part-time to balance family and work responsibilities. 
Others are forced to work part-time as employers limit access 
to healthcare and other fringe benefits.
    This is especially true in the service sector and in 
transportation, the parts of our economy that are adding jobs. 
And I should point out that at Wilmington, at the air freight 
hub, as many as 1,400 part-time workers may be ineligible for 
benefits when they are laid off, even though they have worked 
steadily for years.
    Another crucial reform to the unemployment insurance system 
is to extend benefits for workers who are in an approved 
training program. All too often, workers cut short their 
training experiences or decide not to enter training at all 
because they must start a job search. This economic reality 
prevents individuals from reaching their full potential because 
they could not enter a higher skilled occupation.
    States that are leaders in moving large numbers of 
unemployed workers into training have implemented extended UI 
benefits on their own, realizing that it is a smart long-term 
investment in human capital. The Workforce Investment Act 
program, which is the premier Federal employment and training 
program for low-income and unemployed adults, is also in need 
of an overhaul.
    The law mandates a sequence of services that allow some 
local workforce boards to create a series of hoops that delay 
participants' entry into training. The upshot is that some 
individuals become discouraged and never make it to training. 
Congress should scrap the sequence of services in favor of a 
rapid effective assessment of an individual's needs and labor 
market prospects.
    WIA also needs to become more tightly integrated with the 
needs of employers, but without giving up its traditional 
funding streams. The traditional WIA board has not been enough 
to ensure the involvement of employers in some areas. Sector 
strategies are the best way to do this, to get the involvement 
of employers. The SECTORS Act of 2008, which brings together a 
wide variety of stakeholders to build career ladders, can help 
put talent pipelines into place. Unemployed workers can then be 
directed toward these career ladders if they need to change 
occupations.
    Another important Federal program that needs to be 
modernized is Trade Adjustment Assistance. This is a major 
program in Ohio. The application process needs to be reformed. 
Rather than the cumbersome workplace-by-workplace approach, it 
is time to recognize that in some sectors of the economy, the 
loss of market share has been so pervasive that a sector-wide 
certification process should be contemplated, and communities 
that have been severely impacted by international trade should 
be eligible for special economic development assistance.
    TAA should also be broadened to include workers in the 
service sector. Large parts of the service sector, including 
jobs in legal and healthcare fields, now can be moved overseas. 
TAA program rules should take this into account, and the 
Federal Government should increase funding for the program 
commensurately.
    Also, the TAA, we just need a better trade policy to 
stabilize the manufacturing sector. It would be better if 
people did not lose their jobs in the first place. Public lack 
of confidence in manufacturing as a career has now become so 
widespread that it affects the ability of employers to fill 
available jobs that pay good wages. Workforce development 
policy alone cannot address this situation.
    Some of the programs that also need to be taken into 
account is the TAA for firms to help employers retool. That is 
funded at a paltry $11 million per year for the entire country. 
The Manufacturing Extension Partnership program, which can help 
any small manufacturer, has been funded for years at or below 
$100 million, and that is not a big amount for the entire 
country.
    Finally, we should seize the opportunity afforded by 
bipartisan support for a new national energy policy, to merge 
it with a rejuvenated workforce and economic development 
strategy. Here in Ohio, we have a successful solar panel 
industry, and we can make many of the components that are 
needed for wind turbines.
    Energy efficiency and green building projects are also 
becoming more commonplace. Federal policy should ensure that 
low- and middle-income citizens have the opportunities to enter 
these growing fields and to move up the career ladder.
    In some cases, this might mean a traditional community 
college experience. In others, it might mean pre-apprenticeship 
programs that build basic math and literacy skills necessary to 
succeed in a training program for a skilled trade. Congress 
should start by funding the Green Jobs Act and its Pathways Out 
of Poverty program.
    Thank you, Senator Brown, and to the committee.
    [The prepared statement of Mr. Honeck follows:]
                Prepared Statement of Jon Honeck, Ph.D.
    Good afternoon Chairman Brown, and members of the Senate Committee 
on Health, Education, Labor, and Pensions. Thank you for extending the 
invitation to speak before you this afternoon. It is a pleasure to be 
here to present the views of Policy Matters Ohio on strategies that can 
help Ohio and other Midwestern States overcome some of their current 
economic challenges. Policy Matters Ohio is a non-profit, non-partisan 
research institute with offices in Cleveland and Columbus that conducts 
research on workforce development, tax policy, economic strategy, clean 
energy, and education.
    Mr. Chairman, there is no doubt that we come here today at a 
critical moment. If present trends continue, the first 10 years of the 
21st century will be remembered as a ``lost decade'' in Ohio's economic 
history. We are one of only two States, the other being Michigan, that 
have not recovered all of the jobs that we lost during the 2001 
recession. In fact, Ohio today has about the same number of jobs that 
we did in 1997. It is not a coincidence that Ohio and Michigan are in 
the same boat. They both depend heavily on manufacturing, and we live 
in an era in which the large parts of the domestic manufacturing 
industry are undergoing a painful restructuring process. Since 1998, 
over 4 million U.S. manufacturing jobs have been lost, a reduction of 
almost one-fourth. Over 278,000 of these job losses occurred in Ohio. 
It is noteworthy that these losses occurred even as the national 
economy recovered and grew, albeit at a slower pace than in the 1990s. 
Federal trade and economic policies have severed the traditional link 
between national economic growth and rising employment in 
manufacturing. This link was the key to Ohio's economic prosperity. We 
need to find a way to restore this connection and stabilize 
manufacturing, and to become leaders in other economic sectors.
    Unfortunately, we have no immediate prospects of restoring Ohio's 
overall job total even to what it was 8 years ago. On the contrary, 
economists now acknowledge that the national economy is in a recession, 
having shed over three-quarters of a million jobs this year. Ohio's 
economy is floundering as well, having lost 11,900 jobs since December 
2007 (on a seasonally adjusted basis). Ohio's unemployment rate now 
stands at 7.4 percent, which is more than a full percentage point above 
the national average.
    As our national government takes steps to confront the financial 
crisis, it is time that we redirect investment and ingenuity to 
boosting the real economy, rather than financial speculation. Long-term 
prosperity must be built on an internationally competitive economy 
where people make quality products and provide quality services. We 
believe that the only way to do this is by restoring the social compact 
between employers and employees that lets workers share in the 
productivity gains made by companies. Rather than being reactive as we 
have in the current crisis, it is time to develop a long-term plan to 
move forward.
    No one has all of the answers, but there are some realistic actions 
that we can take now. Some of these actions will make it easier to 
address the current economic crisis, and others will take longer to 
bear fruit. Federal policy can make a huge difference in helping States 
like Ohio make the transition to a healthy economy.
    One of the important long-term actions we must take is to modernize 
unemployment insurance for the 21st century. We commend Congress for 
passing a much-needed extension of unemployment benefits for 13 weeks. 
With the growth in long-term unemployment, the Senate should act to 
further extend benefits, as the House voted to do last week. Beyond 
that, the agenda must move forward to a more strategic, long-term 
approach.
    Ohio's unemployment insurance system has both structural financial 
problems and poor benefit coverage, problems that also occur in many 
other States. The Federal Government should seize this opportunity to 
make a historic bargain with the States that would offer help with 
their financial crisis in return for fundamental reforms to 
eligibility. The House of Representatives last year approved H.B. 3920 
which included important changes that would begin to address this 
issue. The Senate should approve S.B. 1871, which further expands upon 
the House bill.
    Poor benefit coverage is due in part to eligibility rules that are 
tailored to full-time, year-round work. But two trends in our economy 
make it less likely that people will be working full-time, when 
compared to previous generations. First, because wages have been 
stagnant, many families have sent an additional adult into the 
workforce who juggles paid work with parenting or caring for elderly 
relatives. These newer workers--often women--may work less than full-
time so that they can better balance their multiple responsibilities. 
But secondly, many workers are involuntarily part-time because 
employers--particularly retailers but others as well--have tried to 
avoid paying benefits by manipulating schedules. So ironically, workers 
sometimes juggle two part-time jobs, neither of which provide benefits, 
and work even more hours than one full-time job would require. In the 
12 months ending June 30, only 37 percent of jobless U.S. workers were 
receiving unemployment benefits. This percentage is lower than it was a 
generation or more ago. In many parts of the economy, full-time work is 
no longer the norm for many people. This is especially true in the 
service sector and in transportation, the parts of our economy that are 
adding jobs.
    Ohio's eligibility threshold for unemployment benefits exacerbates 
this problem. It requires that a person make an average of at least 
$206 a week during 20 weeks of the previous year. This means that 
someone working 20 hours a week at $10 an hour would not qualify; nor 
would someone working 29 hours a week at the minimum wage. For this 
reason, it has been estimated that as many as 1,400 part-time workers 
at the DHL Wilmington air freight hub will be ineligible for benefits 
when they are laid off, even though they may have worked steadily for 
years.\1\ The State is seeking Federal aid for many of these workers. 
But more broadly, Ohio should reduce its earnings requirement. And in 
the future, Congress should consider steps to ensure that earnings 
thresholds like Ohio's do not leave workers struggling without 
unemployment benefits.
---------------------------------------------------------------------------
    \1\ John Nolan, ``Part-timers at DHL Wilmington may not qualify for 
benefits,'' Dayton Daily News, August 20, 2008.
---------------------------------------------------------------------------
    Another crucial reform to the unemployment insurance system is to 
extend benefits for workers who are in an approved training program. 
Under the Workforce Investment Act (WIA), the Federal Government 
provides tuition assistance for unemployed workers through local 
workforce investment boards. All too often, however, workers cut short 
their training experiences or decide not to enter training at all 
because they must start a job search. This economic reality prevents 
individuals from reaching their full potential because they cannot 
enter higher-skilled occupations that can support a middle class 
standard of living. States that are leaders in moving large numbers of 
unemployed workers into training, such as Washington and New Jersey, 
have implemented extended UI benefits on their own, realizing that it 
is a smart long-term investment in human capital.
    The WIA program, which is the premier Federal employment and 
training program for low-income and unemployed adults, is also in need 
of an overhaul. The law mandates a ``sequence of services'' that allows 
some local workforce boards to create a series of hoops that delay 
participants' entry into training. The upshot is that some individuals 
become discouraged and never make it to training. Congress should scrap 
the sequence of services in favor of rapid, effective assessment of an 
individual's needs and labor market prospects.
    The WIA system should be reoriented to support long-term training 
if workers want to pursue this option. In a well-known study of 
community college students in Washington State, researchers found that 
1 year of post-secondary education and a credential were necessary to 
create a ``tipping point'' that substantially improved labor market 
outcomes for low-skilled adult students.\2\ This means WIA should 
provide enough funds for supportive services such as transportation or 
child care to enable participants to persist in training. It also means 
revising WIA performance standards to include long-term employment and 
wage results.
---------------------------------------------------------------------------
    \2\ Prince, David and Jenkins, Davis. ``Building Pathways to 
Success for Low-Skill Adult Students; Lessons for Community College 
Policy and Practice from a Longitudinal Student Tracking Study. (The 
``Tipping Point'' Research.) Washington State Board for Community and 
Technical Colleges. April 2005. Available at http://www.sbctc.ctc.edu/
docs/data/research-reports/resh_06-2-tipping_point.pdf.
---------------------------------------------------------------------------
    WIA also needs to become more tightly integrated with employers' 
needs, but without giving up its traditional funding streams. The 
traditional employer-led WIA board has not been enough to ensure the 
involvement of employers in some areas. Sector strategies are the best 
way to do this. The SECTORS Act of 2008, which brings together a wide 
variety of stakeholders to build career ladders, can help to put talent 
pipelines into place. Unemployed workers can then be directed toward 
these career ladders if they need to change occupations.
    Providing income support for workers in training would give all 
unemployed workers an opportunity to access a benefit that is already 
available to participants in the Trade Adjustment Assistance (TAA) 
program. TAA participants also have access to a Federal health care tax 
credit, so unemployed workers generally prefer to go this route if they 
intend to enter training. Thousands of Ohio workers have entered the 
TAA program in recent years. Ohio is one of the leading States for TAA 
activity. Since January 2001, the U.S. Department of Labor has 
certified 68,094 workers at Ohio companies as eligible to apply for TAA 
because they have lost their jobs due to international trade. This 
number includes 9,703 workers in 2007, and 7,296 from January through 
August 2008.
    There is widespread acknowledgement that the TAA program does not 
cover all of the affected workers in manufacturing. Supplier 
certifications do not go past the first tier of affected companies, and 
workers in many smaller workplaces lack awareness of the program. 
Moreover, restricting the program to the manufacturing sector no longer 
makes sense. Large parts of the service sector, including jobs in legal 
and health care fields, now can be moved overseas with a speed that was 
unthinkable a generation ago. TAA program rules must take this into 
account and allow workers in the service sector to become eligible for 
benefits. The Federal Government should increase funding for the 
program commensurately.
    The TAA application process should also be reformed. Rather than 
the cumbersome workplace-by-workplace approach, it is time to recognize 
that in some sectors of the economy the loss of market share has been 
so pervasive that a sector-wide certification process should be 
contemplated, and communities that have been severely impacted by 
international trade should be eligible for special economic development 
assistance.
    Of course, workers would be better off if they kept their jobs and 
did not have to use the TAA program. A better trade policy would help 
to stabilize the manufacturing sector. Public confidence in 
manufacturing as a career has now become so widespread that it affects 
the ability of employers to fill available jobs that pay good wages and 
benefits. Workforce development policy alone cannot address this 
situation.
    As we develop strategies to make our economy more competitive, it 
is readily apparent that the Federal Government has under-invested in 
key programs to help our manufacturing base, even as manufacturing has 
struggled in recent decades. The other side of the TAA program, TAA for 
firms, is funded at a paltry $11 million per year. The Manufacturing 
Extension Partnership program, which can help any small manufacturer, 
has been funded for years at or below $100 million annually. These 
programs are important, especially for small companies that lack the 
time or expertise to effectively modernize their facilities or 
undertake extensive market research to launch a new product. Textbook 
economic models often assume that most companies are making optimal use 
of new technologies and the latest management techniques. In reality, 
there are variations in productivity levels among firms, creating a 
wide gap between best practice and reality. Many firms can make 
substantial improvements to their performance by adopting best 
practices, and without making enormous investments in capital 
equipment.
    Finally, we should seize the opportunity afforded by bi-partisan 
support for a new national energy policy to merge it with a rejuvenated 
workforce and economic development strategy. Here in Ohio, we have a 
successful solar panel industry and we can make many of the components 
that are needed for wind turbines. Energy efficiency and green building 
projects are also becoming more commonplace. Federal policy should 
ensure that low- and middle-income citizens have the opportunities to 
enter these growing fields, and to move up the career ladder. In some 
cases this might mean a traditional community college experience, in 
others it might mean ``pre-apprenticeship'' programs that build basic 
math and literacy skills necessary to succeed in a training program for 
a skilled trade. Congress should start by funding the Green Jobs Act 
and its Pathways out of Poverty Program.
    Thank you, Mr. Chairman and members of the committee for the 
opportunity to testify today. I would be pleased to answer any 
questions that you may have.

    Senator Brown. Thank you very much, Mr. Honeck.
    Ms. Edwards.

   STATEMENT OF STACIA EDWARDS, DIRECTOR, REGIONAL WORKFORCE 
TRANSFORMATION CONSORTIUM, SINCLAIR COMMUNITY COLLEGE, DAYTON, 
                               OH

    Ms. Edwards. Thank you, Senator Brown, for inviting me to 
testify this afternoon. And on behalf of the Regional Workforce 
Transformation Consortium and Sinclair Community College, I 
would like to thank you personally for your deep commitment to 
the future prosperity of the region.
    The Dayton region has a window of opportunity to effect 
workforce transformation within the next 3 years if we can 
identify a strategy and lay the foundations necessary to meet 
both the needs of the employers and the skills of the 
employees. The region has seen significant disruptive changes 
that are impacting both employers and workers in the Dayton 
region.
    Downsizing and plant closures have left many workers 
unemployed with few resources dedicated to assisting their 
transition into new industry sectors with similar skill set 
requirements. At the same time, the Base Realignment and 
Closure, BRAC, process will create highly skilled job 
opportunities by 2011, but currently, the region does not have 
the talent pool of experience required to fulfill every key 
position.
    A 2006 job vacancy study identified a short-term demand for 
employees with more advanced skills that are needed within 
existing businesses as they strive to remain competitive and 
grow. The study revealed more than 21,000 job vacancies. 
However, the skill sets needed for the majority of these 
positions disqualified most, if not all, of the 26,000 
unemployed at the time.
    This skills gap between the workforce needs of employers 
and the available workforce revealed the root problem the 
region must solve in order to recover from the disruptive 
changes on the horizon as a result of downsizing, BRAC, and 
current demand. Today, I would like to provide high-level 
details on the actions that have already been taken, a 
strategic plan for future implementation, and recommendations 
as to how the Federal Government could support the region as it 
goes through the transformation.
    There has been a consolidation of interests and of 
capabilities between the academic, public, and industry sectors 
through the development of the Regional Workforce 
Transformation Consortium. Simply stated, the mission of this 
organization is to develop capabilities that allow for the 
affected redeployment, revitalization, and rebuilding of 
workforce on both the supply and demand side.
    This organization mirrors the partnerships described in the 
Strengthening Employment Clusters to Organize Regional Success, 
SECTORS Act of 2008 authored by you. The initiatives can guide 
the effective use of individual group funds for a collectively 
agreed-upon goal. This results in the consortium's ability to 
leverage investments rather than operating in an environment of 
isolation and competition.
    The Regional Transformative Workforce Response is based on 
a series of strategies applied over time to deal with the 
trauma created by disruptive changes and is based on a model 
applied in the case of disaster recovery. Acknowledging that 
there are a number of stages necessary to achieve the ultimate 
re-establishment of prosperity or activity that existed prior 
to the disaster is the focus of this model.
    The five stages--respond, recover, restore, rebuild, and 
redevelop--are used as a framework for redefining specific 
workforce outcomes, actions, and recommendations that relate to 
the short- and long-term.
    Our first stage is to respond. Within the first 6 weeks, 
the strategy must focus on the ability to align displaced 
workers with existing demand within the region's businesses. 
Funding is needed in transition centers to provide tools that 
can assess workforce skills at the individual level and 
translate these skills into existing employer demand.
    The second stage is to recover. This is a 6-month outlook 
and requires every effort to bolster the capacity of the 
existing business and industry infrastructure to absorb 
displaced workers. Subsidizing education and training, 
including soft skills management and supervisory skills, of 
incumbent lower-skilled workers in an effort to prepare them 
for higher-skilled, high-wage jobs that meet the need of the 
employers would also create vacancies in entry-level positions 
for workers with appropriate skills.
    Our focus for this strategy would be to fund the target 
sectors of the regional economy, thus focusing dollars within 
infrastructures that can best provide for employment in the 
long-term. These short-term strategies could be funded with 
Federal dollars that are already allocated to deal with the 
dislocation events in unemployment.
    The workforce consortium believes that the region will 
continue to experience difficulty accessing Federal funds in 
place to support dislocated workers because those funds are 
shrinking, highly competitive, and planning grants narrowly 
define what regions are permitted to do with the funds.
    The third stage is to restore. Within 1 year, programs and 
efforts focused on the long-term realignment of skills to the 
workforce development priorities of the region must be well 
established. Reskilling and continuous learning programs, such 
as those modeled in the Ohio Skills Bank, broaden the capacity 
of workers to take on jobs within new businesses.
    Systemically, the development of such programs depends on a 
clear understanding of the regional educational and training 
assets, a dynamic knowledge of the key demand areas within the 
region, and funding to maintain, improve, staff, and execute 
these efforts.
    The fourth stage is rebuilding. This is a longer-range 
strategy that will impact the region within the next 3 years. 
These rescaling programs broaden the capacity of workers to 
take on jobs within new businesses and industries, again 
addressing the need for high-skilled workers.
    Within the Dayton region, it is our view that long-term 
stability requires the development of small- and medium-sized 
businesses in the targeted industries. Subsidies within 
targeted industries will be needed to continue engagement with 
employers, to foster on-the-job training opportunities as the 
norm rather than the exception.
    The final stage, redevelopment, looks beyond the next 3 
years. The long-term prospects for prosperity within the Dayton 
region will depend on the development of an infrastructure that 
is adaptive to the increasing rate of change within the global 
economy and the ability to capitalize on natural advantages in 
the region, including the low cost-of-living, a stable supply 
of water and power, a hub of research and development activity 
and expertise in the Wright-Patterson Air Force Base, and the 
existence of a strong education system.
    These five stages are the framework for regional stability. 
If executed correctly, employment pathways will provide both a 
near and longer-term view to employer demand at the 
occupational level and will provide a lattice of opportunities 
that could lead to multiple strategic industries.
    A focus on the individual's transferable skills provides 
the region with the opportunity to manage a system that allows 
for fluid movement from one industry to another based on the 
regional demand. The Dayton region looks forward to working 
with our Government representatives as we implement the 
strategy for recovery.
    I look forward to your questions.
    [The prepared statement of Ms. Edwards follows:]
                  Prepared Statement of Stacia Edwards
    Thank you Senator Brown for inviting me to testify this afternoon 
on the ``Midwest Jobs Picture: Strategies to Rebuild Communities.'' On 
behalf of the Regional Workforce Transformation Consortium I would like 
to thank you personally--Senator Brown--for your deep commitment to the 
future prosperity of this region.
    The Dayton Region has a window of opportunity to effect workforce 
transformation within the next 3 years if we can identify a strategy 
and lay the foundations necessary to meet both the needs of the 
employers and the skills of the employees. The region has seen 
significant disruptive changes that are impacting both employers and 
workers in the Dayton region. Downsizing and plant closures have left 
many workers unemployed with few resources dedicated to assisting their 
transition into new industry sectors with similar skill set 
requirements. At the same time, the Base Realignment and Closure (BRAC) 
process will create highly skilled job opportunities by 2011, but 
currently the region does not have the talent pool of experience 
required to fill every key position.
    A 2006 job vacancy study commissioned by Montgomery County also 
identified a short-term demand for employees with more advanced skills 
that are needed within existing businesses as they strive to remain 
competitive and grow. The study revealed more than 21,000 job 
vacancies; however, the skill sets needed for the majority of these 
positions disqualified most, if not all, of the 26,000 unemployed at 
the time. This ``skills gap'' between the workforce-needs of employers 
and the available workforce revealed the root problem the region must 
solve in order to recover from the disruptive changes on the horizon as 
a result of downsizing, BRAC and current demand.
    Today, I would like to provide high level details on the actions 
that have already been taken, a strategic plan for future 
implementation, and recommendations as to how the Federal Government 
could support the region as it goes through this transformation.
    In the fall of 2007 a sector strategy was launched by Montgomery 
County. This sector approach to workforce development for the Dayton 
region is organized into three parts--strategic industries, core 
industries, and infrastructure industries--each of these three industry 
areas have unique workforce needs. A summary highlighting workforce 
demand in each industry area along with a full report is attached in 
Appendix A.

    [Editor's Note: Due to the high cost of printing, previously 
printed material is not reprinted. To view the above referenced report, 
please go to http://mcohio.org/Montgomery/home/docs/
Workforce_Strategy_May62008.
pdf.]

    There has also been a consolidation of interest and of capabilities 
between the academic, public, and industry sectors through the 
development of the Regional Workforce Transformation Consortium. A 
detailed description can be found in Appendix B, but simply stated, the 
mission of this organization is to develop capabilities that allow for 
the affected redeployment, revitalization and rebuilding of workforce 
on both the supply and demand side. The consortium provides a 
collaborative environment where strategic initiatives can guide the 
effective use of individual group funds for a collectively agreed-upon 
goal, this results in the entire group's ability to leverage 
investments rather than operating in an environment of competition. 
Additionally the Ohio Skills Bank initiative has been leveraged as part 
of the region's strategic framework.
    Now that the framework and network has been developed through the 
Consortium, the strategic plan for regional workforce transformation is 
being developed based on a disaster recovery model. This model for 
recovery recognizes that there are a number of stages necessary to 
achieve the ultimate re-establishment of prosperity or activity that 
existed prior to the disaster, and is the short-term solution. The five 
stages: respond, recover, restore, rebuild, and redevelop, are used as 
a framework for defining specific workforce outcomes, actions, and 
recommendations.
    Our first stage is to respond. Within the first 6 weeks, the 
strategy must focus on the ability to align displaced workers with 
existing demand within the region's businesses. Funding is needed in 
transition centers to provide tools that can assess workforce skills at 
the individual level and translate these skills into existing employer 
demand.
    The second stage is to recover. This is a 6-month outlook, and 
requires every effort to bolster the capacity of the existing business 
and industry infrastructure to absorb displaced workers. The 2006 job 
vacancy study identified a significant number of openings within 
existing industries that require high skills and provide a high wage. 
This issue might be alleviated by subsidizing education and training, 
including soft skills, management and supervisory skills, of incumbent 
lower skilled workers in an effort to prepare them for higher skilled, 
high wage jobs that meet the need of the employers. This strategy would 
also create vacancies in entry level positions for workers with 
appropriate skills. Our focus for this strategy would be to fund the 
target sectors of the regional economy. In this way dollars are focused 
within infrastructures that can best provide for employment in the 
long-term.
    These short-term strategies could be funded with Federal dollars 
that are already allocated to deal with the dislocation events and 
unemployment. Some of the local, longer term issues facing dislocated 
workers, however, link directly to the difficulty accessing and 
qualifying for the Federal funds that are already in place to support 
obtaining the skills needed by employers.
    The third stage is to restore. Within 1 year, programs and efforts 
focused on the long-term realignment of skills to the workforce 
development priorities of the region must be well-established. These 
programs broaden the capacity of workers to take on jobs within new 
businesses. However the development of such programs depends on a clear 
understanding of the regional education and training assets, a dynamic 
knowledge of the key demand areas within the region, and funding to 
maintain and improve these efforts.
    The fourth stage is rebuilding. This is a longer range strategy 
that will impact the region within the next 3 years. Within the Dayton 
region it is our view that long-term stability requires the development 
of small- and medium-size businesses in the targeted industries that 
tie closely with the mission of the Wright Patterson Air Force Base. 
Education remains a significant factor in this stage. Creating and 
sustaining a high-skilled workforce that meets the ever-changing 
demands of existing employers requires that employees are constantly 
presented with options to increase their skills so that continuous 
learning is the norm rather than the exception in business and 
industry.
    The final stage, re-development looks beyond the next 3 years. The 
long-term prospects for prosperity within the Dayton region will depend 
on the development of an infrastructure that is adaptive to the 
increasing rate of change within the global economy and the ability to 
capitalize on natural advantages in the region--including the low cost-
of-living, a stable supply of water and power, a hub of research and 
development activity and expertise in the Wright Patterson Air Force 
Base and the existence of a strong education system.
    These five stages are the framework for regional stability. If 
executed correctly, employment pathways will provide both a near and 
longer term view to employer demand at the occupational level, and will 
provide a lattice of opportunities that could lead to multiple 
strategic industries. A focus on the individual's transferrable skills 
provides the region with the opportunity to manage a system that allows 
for fluid movement from one industry to another based on the regional 
demand.

    Senator Brown. Thank you, Ms. Edwards, very much.
    Thank you all.
    A couple of introductions. Commissioner Foley, thank you 
for joining us. Tom Raga, thank you for joining us, he is the 
former State Representative and now works at Sinclair Community 
College.
    Thank you for joining us.
    Mike Wiehe is here from Congressman Turner's office. 
Welcome to him. Brewster Rhodes from the governor's office is 
here with us, also. He runs this region for the governor. So 
thank you for joining us.
    Mayor McLin, one of the beauties, perhaps, of our political 
system is that regardless of which party is in control of the 
Government, every 4 or 8 years, we start again with a new 
Administration. And we will, with either Senator McCain or 
Senator Obama, start again in January. That means new people at 
the Labor Department, new people--new decisions on TAA and some 
other issues.
    A couple of questions I want to ask you. First, about the 
Labor Department. What has your experience been in working with 
the Labor Department on plant closures, on rapid response? We 
have some of those same issues, Mr. Mead, obviously, with what 
is happening--what might happen with the Labor Department if 
the news doesn't get better at DHL.
    But I wanted to ask the mayor what has your experience 
been, and what recommendations do you have for improvement 
that, come January--and a big part of this hearing is come 
January--I want to take issues to the new Labor Department and 
figure some new things out.
    Ms. McLin. I would say that the biggest difficulty you have 
is getting the correct message. Many times you are told one 
thing, people are told another, trying to get the correct 
message. So, therefore, you would know where to move to the 
next level.
    The second thing is that it is not clear when the problems 
come down on whether we fit in there or we don't, and if you 
don't ask the questions, you can't get the answer. So it is 
more of a probing on our part to get the responses that we need 
in assisting.
    Sometimes the people call our offices because they are so 
frustrated with going through the process that has been 
established. One of the things that we found out, even with 
being able to apply--and I cannot recall the correct term when 
your job has been displaced because of out of State, out of the 
country contracts----
    Senator Brown. Trade Adjustment Assistance.
    Ms. McLin [continuing]. Then you could do that. It took a 
long time to even get that in process for people who were 
impacted to be able to apply.
    What we would like to see that would help, even from the 
local government on up, is that if, when we are talking with 
the Federal Government, they would give us one message.
    Senator Brown. When you deal with something like a rapid 
response team there, is it not just different messages, but 
different people? Because one of the things we have tried to do 
with DHL is to have one person in the Administration we can go 
to, one person at the Labor Department, so that all roads run 
through that person. Should that be part of the strategy for a 
plant closing, any plant closing, any sort of distress in the 
community?
    Ms. McLin. I believe that is the best method because I 
think that has been very helpful to you, Mayor, because by the 
time that we got to the DHL, we had experimented with the 
General Motors, with the Delphi, and all of that. And so, they 
were able to benefit with the criticisms that had come from the 
General Motors and the Delphi plants closing to be able to 
benefit the mayor from Wilmington. So I think that would be a 
part of customer service.
    Senator Brown. I appreciate in your testimony your 
historical view of what Federal programs initially aimed at 
cities have sort of bled into inner-ring suburbs, outer-ring 
suburbs, small towns, sort of everywhere, which each has its 
own set of problems, of course. I grew up in a city of 50,000 
surrounded by small towns and rural areas, and that is a 
different set of problems than the city of Dayton. But the 
mission was sort of lost, as you suggest.
    I hope we would look to a new Administration, in a new 
Congress, and be more focused, first, on the manufacturing 
agenda and second, on an urban agenda. There will be a lot of 
overlap, but they are two very different things.
    Do you have examples that you can either give me now or 
give me later on what kinds of things should be unique to 
cities? I mean, I know CDBG moneys are really, really, really 
important for Dayton. They are also important for Wilmington. 
They are also important for Springfield and Xenia. But are 
there some unique programs we should be thinking about that are 
programs that are uniquely urban strategy?
    Ms. McLin. Well, let us just take the CDBG money. That 
formula needs to be reworked to really help the distressed 
areas because, what we have found in the city of Dayton, that 
because we have approached it from a very aggressive manner, we 
get penalized for doing good. So the formula really is a 
problem.
    I'll give you an example like the housing bill that just 
came down, which we really thought that the city of Dayton was 
going to benefit from. Well, we only got $5 million, and we are 
a distressed city. Cleveland got $11 million. It is a 
distressed city. But Youngstown only got $3 million, and we 
know that is a distressed city. Toledo got $12 million and 
Columbus got $22 million.
    In the formula that was calculated--now we are talking 
about directly to the cities.
    Senator Brown. This is the recent, the $240 million, $260 
million coming--let me, just for people's information.
    One of the things that I am on in the Senate Banking 
Committee, and housing is part of that committee's 
jurisdiction. And we wrote in part--this wasn't the most recent 
legislation. This was from months ago. We were able to get a 
significant amount of money, close to $4 billion, for 
communities that had significant foreclosure problems, as 
almost everywhere does. But it is based on the severity of the 
problem in the community.
    We wrote it in a way that Ohio gets significantly more than 
the national average per capita, but based on severity of 
problems. The money coming to Ohio is $260 million. I think you 
are going to get significantly more than that.
    Ms. McLin. We have to apply to the State, and the State is 
in the process of working out their formula. But the city 
itself----
    Senator Brown. OK, the formula is going to work in a way 
that does much better for this city. Talk to me if it doesn't. 
I mean, talk to me either way about it. But it is certainly 
supposed to be----
    Ms. McLin. Well, we have been in touch with the governor's 
office, saying that we really need the help because, this year 
alone, we are tearing down 300 homes.
    Senator Brown. Cost of $9,000 to $10,000 each--$9,000, 
$10,000, $11,000 each?
    Ms. McLin. It depends, it is averaging around $5,000 to 
$7,500 per, but if we are talking about apartment buildings or 
any other distressed structure, on a larger number, that is 
higher, which causes us to have problem here.
    If we can take our neighbor's house and the house next to 
it as a nuisance, and we tear it down. If we can even offer--we 
have a program we call ``Lots Linked'' --to that person to be 
able to purchase that lot through the REIT program, and then 
that increases the value of their home and we have also taken a 
nuisance out of the neighborhood, which improves it.
    But that is one of those things that when the formulas are 
being--just giving you an example, that is why I used the 
housing legislation that was--coming with the formulas and with 
the CDBG money, we get penalized when we do a good job.
    Senator Brown. Yes, I think in the end you won't on this, 
but I understand the issue, and sometimes you are. Are you 
using any significant or do you expect to use any significant 
amount of the CDBG money to rehab homes? Or just the ones that 
are the worst, or with the limited amount of money you need to 
knock down the worst ones to preserve the neighborhood?
    Ms. McLin. We want to use the money to not only knock down, 
rehab those that are--would be beneficial and because we even--
that would be good that we can do that. We also have talked to 
your department about even coming up, as we talk about land 
banking with these projects. I am going way off now. But 
talking about land banking on these projects is that using the 
Farm bill that came down, to use that for some urban farming or 
some other creative things that we can do with the land that we 
have.
    I have Commissioner Whaley, who had been heading up our 
land banking initiative, which is going to end up having to be 
a regional project for it to be effective.
    Senator Brown. The county treasurer in Cleveland who is 
very interested in that, as you know. The governor is 
increasingly interested in the legislation. And there seems to 
be some potential real agreement on the State level on that. So 
we will work with you on that.
    Thank you, Mayor.
    Mr. Mead, I just want to talk to you about DHL, and I am 
sure you are angrier than I. I am plenty angry about it, and 
you are probably angrier about it in that it affects you so 
directly.
    Give me your opinion on how DHL took a company that was 
profitable, Airborne, in 4, 4\1/2\ years, turned it to the 
losses of this magnitude when they had State assistance when 
they bought Airborne? Are those numbers true? And how did this 
happen?
    Mr. Mead. Well, I think DHL's customer base before they 
bought Airborne Express was a completely different customer 
base than what Airborne Express had before the merger. Airborne 
serviced sort of a low-cost, high-volume market, and DHL's was 
more of a low volume, high cost. DHL concentrated on 
international deliveries from key cities in the United States--
Los Angeles, San Francisco, and New York--the larger cities, 
really supplying the international market solely.
    And when they merged with Airborne Express, they tried to 
integrate two systems that just simply didn't work. They tried 
to assume the customer base of Airborne Express, and they tried 
to, I think, impose the cost structure of the international 
market on that. And so, they lost a lot of business with that.
    The merging of the two systems, the two sort systems down 
in Wilmington, was also a bit of a disaster. Airborne Express' 
freight system, the physical containers they use to move the 
freight around, are vast different than any other freight 
system in the country. And they couldn't integrate those two 
systems to where the freight was interchangeable between the 
aircraft from the company that I work for, ASTAR, or the 
company that was there originally, the Airborne Express, which 
is now ABX.
    So they lost a lot of economy of scale by failing on that 
merger. They still, to this day, operate two different sort 
systems down there, which is going to double the cost of what 
they do.
    Furthermore, DHL abandoned, as you know, their brand-new 
sort facility in Cincinnati, which cost them $315 million. I 
think they were there for just about a year before they left it 
and moved to Wilmington.
    So DHL is no stranger to losing money. And I think that the 
United States, before the merger or the combination of Airborne 
Express and DHL, DHL realized a small loss in the United 
States, which they used as a loss leader to supplement their 
global delivery system. When they assumed the Airborne Express 
portion, they increased that loss exponentially.
    Senator Brown. Why do you think that Deutsche Post and DHL 
will not even really listen to an offer from ABX and ASTAR?
    Mr. Mead. Well, as I said in my testimony--I hope I wasn't 
too over the top--I firmly believe that they have a global 
vision of joining forces and having UPS service the domestic 
market and DHL service the international market. I think that 
is their ultimate goal. Now, whether or not that passes 
antitrust scrutiny or not remains to be seen.
    Senator Brown. Only one competitor?
    Mr. Mead. Yes. Well, I am sure there are ways around it. I 
am sure they have got lawyers working on this full-time. I 
assume what they eventually want to have happen is DHL's market 
share will shrink in the United States to the point where they 
go ahead and pull out, and DHL just operates the international 
market. And DHL and UPS feed each other across the Atlantic 
Ocean.
    Senator Brown. Is that the best case to make for antitrust 
violation?
    Mr. Mead. Well, I don't know if that would pass antitrust 
scrutiny. I am not a lawyer. I don't really know. But my 
feeling is it is clear that the air operation is not the 
problem. DHL's own records indicate that the cost of ASTAR Air 
Cargo and the cost of Airborne Express combined is only about 
$1.2 billion. Well, if they pay $1 billion to UPS to fly the 
freight, they are only saving $200 million a year.
    Now, in order to effect this changeover, DHL has announced 
that it will cost them up to $2 billion just to do the 
changeover. So, in effect, in 1 year, they are incurring the 
costs that they would have lost over 10 years by operating 
ASTAR and ABX together.
    Were they to allow Airborne Express, or ABX now, and ASTAR 
to merge, were they to re-fleet the airlines, were they to 
transfer the sort system back to the Cincinnati hub, which they 
still own and is a state-of-the-art system, they could transfer 
thousands of jobs from the Wilmington area down there, which is 
actually what happened when DHL was operating the Cincinnati 
hub. We bussed people in from as far away as Dayton to operate 
the sort system at the Cincinnati airport, which is in northern 
Kentucky.
    And so, there are a number of ways that DHL could mitigate 
that loss. But the bulk of the improvements that they are going 
to realize through this restructuring are through things other 
than the air operations.
    Senator Brown. Is it safe to say that most of your co-
workers at DHL and ASTAR and ABX think that this is all about a 
merger?
    Mr. Mead. Yes, no one can see any other reason--the 
decision came so far out of left field that it surprised 
everyone, including most of the management of ASTAR Air Cargo. 
The management thought--they were being very tight-lipped about 
it, but they thought that DHL had purchased some 767s. Well, 
they did purchase some 767s, which have yet to be delivered.
    ASTAR Air Cargo and ABX were vying for those aircraft. As 
it turns out, three of them are going to Europe, and we still 
don't know where the other three are going. But at the time, we 
thought they were going to come to one of the two airlines that 
were based in Wilmington. Until May 28, I think, I know some of 
the management of our company really thought that that was 
going to happen.
    It was such an outrageous announcement that no one could 
come to any other conclusion. They obviously lose a lot of 
money in the sort facility down there, and they lose a lot of 
money through other inefficiencies. A specific example of that 
would be the fact that they operate extremely old aircraft.
    All of our aircraft at ASTAR Air Cargo are three-man 
aircraft. We have a captain, a co-pilot, and a flight engineer. 
Most modern airliners have two crew, the captain and the co-
pilot. They have eliminated the flight engineer. They use 
computers and move most of the systems functions up to the 
front so that the pilots can operate them. So you would save 
money by operating two-pilot aircraft.
    In addition, most modern airliners are two-engine aircraft. 
Only a few, only a small handful of ASTAR's aircraft have two 
engines. The 727s have three engines. The DC-8 that I fly has 
four engines. So by going with more efficient aircraft, you 
would save a tremendous amount of money.
    Well, DHL never invested in our company. They never 
suggested that our owner invest in the company and try and 
upgrade our fleet to a more modern fleet that would obviously 
save a lot of gas as well. So there are massive inefficiencies 
that they never addressed for years and years. And their answer 
is to transfer all the flying to UPS.
    Personally and from the people that I have spoken with, no 
one can figure out any other reason that DHL would have made a 
decision like this other than to try and merge, in some fashion 
or another, with one of the other global players in the market 
and create a duopoly or monopoly, if you will.
    Senator Brown. Thank you.
    We have asked Wisconsin Senator Herb Kohl, who is the 
chairman of the Antitrust Subcommittee of the Senate, to look 
at this, as you know. And he has written a strongly worded 
letter to the Justice Department.
    Believe me, he is a lawyer, and he knows antitrust well. He 
thinks it is an antitrust violation. That doesn't mean the 
Justice Department will decide that, but it does mean that it 
is--I am not a lawyer, and I am certainly not an antitrust 
lawyer. But the more and more evidence that we gather seems to 
say that they want to see basically two cargo companies left, 
FedEx and DHL, and that would come together.
    Well, thank you for your comments and testimony.
    Ms. Richardson, I am confused as to what happened with you 
both on your unemployment and your education promised by 
Delphi. Was this all about Delphi, or was it partly about the 
Government not stepping up where it should have on 
unemployment? Can you kind of walk us through that so we can 
better understand?
    Ms. Richardson. Before we left, before we took the buyout, 
Delphi came in and talked to us and so did unemployment, who 
told us they would not fight us for applying for unemployment 
benefits. I was not supposed to leave until----
    Senator Brown. ``Us'' was several hundred employees at that 
point?
    Ms. Richardson. There was almost half our plant left. As 
soon as we found out, we were told, again, either take the 
buyout or go down with the company. I had to make a decision. I 
have a daughter, family. I didn't want to leave, but I didn't 
know what the outcome was going to be.
    So when I applied for benefits, they told me that Delphi 
had told them that that was 3 years' salary and that we were 
not able to receive benefits. I looked for a job 6 months after 
I left. I was not supposed to leave until January. They came 
and tapped me on my shoulder on a Thursday in November, told me 
my last day was the next day, that Friday.
    I went 6 weeks, 6 to 8 weeks without any money. Once I 
filed, I fought. And I am still fighting for my unemployment 
benefits. It took me 6 months to find an $8-an-hour job, which 
I got fired from, but I won my case. I got one check, and then 
Delphi stepped in and said, ``No, you cannot receive it. You 
are not able to receive it.''
    So it has been a fight. When it came to school, I went to 
the transition center. I wanted to go to school for 
communications. I want to get my Master's in public 
administration nonprofit. They told me when I applied for 
school, we had to take a test. I took the test. I already went 
to school at Central State and Ohio State University. I didn't 
go to school for 10 years. If I didn't pass a certain part of 
the test, I couldn't go to school. I don't understand that.
    It went on and on. It was a fight about that. Then I said, 
``Well, I want to go to school for this.'' ``No, you have to 
either--we are trying to get you a trade.'' ``I don't want a 
trade. This is what I want to do.'' They told me that I would 
have to get an employer to say that they will hire me after I 
finish school and get five references.
    OK, I have to go to school first to get my degree to get in 
the field that I want to get into. So how do I have to do that? 
So I stopped going to the transition center. I stopped dealing 
with Delphi. I stopped dealing with unemployment. So everything 
I have been doing, I have been doing on my own. And it has been 
a struggle.
    There are no jobs out here. Like I said, I interned just to 
try to network. I got on at Dayton Urban League through Ms. 
Theresa with Americorps. I interned there for a year. I was a 
program coordinator. I implemented a program for HIV and AIDS 
outreach for teens at Urban League. I gave away 100 free 
computers to low-income families at Urban League. I worked in 
the tutorial program.
    I am a very smart individual, and it is hard for me to go 
out here and find a job, and the only thing somebody wants to 
do is give me an $8 or $9 an hour job. So I have to do what I 
have to do. I have been networking. I have met people. But 
again, it is still--the hardship is I have to go home every day 
knowing I still don't have a job.
    Senator Brown. Talk to me about your University of Phoenix 
Online program.
    Ms. Richardson. I came into their bachelor's program. I had 
enough credits from Ohio State and Central State to begin my 
bachelor's program. I have already tested out of two of my 
classes, so I will graduate in December 2009 in communications.
    Senator Brown. What is your experience from people you have 
talked to that have gone through a similar program with a major 
like that about job prospects?
    Ms. Richardson. It has been big. Some of my friends have 
tried to start their own business. It has been hard for them. 
Some people I know did do the HVAC and medical. I know people 
who stayed at Delphi for another year, and that is one thing 
Delphi did not tell us that once we took the buyout we had an 
option, people stayed on. I know people who transferred to 
Michigan. I know of people who transferred to St. Louis.
    Now these plants are in trouble, and now they don't know 
what they are going to do. It is sad because we gave our 
hearts. I worked 16 hours a day almost 2, 3 years. I did 
everything I could for Delphi, and I just feel like they just 
took everything from us. They promised us dreams and gave us 
nothing.
    Senator Brown. You finish your degree in communications in 
December 2009, you said?
    Ms. Richardson. Yes.
    Senator Brown. What are you most interested in?
    Ms. Richardson. A job.
    [Laughter.]
    I love working with youth. I want to give back to the 
youth. My daughter is 12 years old. She is at that time now she 
is about to be a teenager. Working at Dayton Urban League and 
working in our Saturday program, we made our teens stand up.
    We have a program called ``Teen Up.'' Our teens are going 
out into the community. We have gotten stars to sponsor us. We 
are really trying to make our teens stand up and take it back. 
It has to deal with abstinence. It has to deal with being good 
role models. This is what I want to do. I love it. I want to 
help some teens out.
    I had one teen, we went head-to-head when he first came 
there. By the time he graduated the program, I am his 
``auntie.'' That is what he calls me. He moved to Chicago. He 
is now at the top of his class in 9th grade. He is playing 
football. He is playing basketball, and I am trying to go up 
there next month to see him.
    I mean, if I could just help one kid, that is just my goal.
    Senator Brown. Thank you. Thank you for that.
    Ms. Richardson. Thank you.
    Senator Brown. Mr. Honeck, talk to me about Ms. 
Richardson's situation. I could see you, you were obviously 
listening to her story. Talk to us about the archaic side, if 
you will, of the unemployment system. I mean, so many people 
aren't eligible at all in the system today.
    Give us a couple of minutes of sort of how it has gotten 
the way it has and how we fill these holes, especially in bad 
economic times, when just far too few people are eligible for 
unemployment? Not just extending it, which we, of course, 
should do immediately, but people that haven't been able to 
qualify, for whatever reasons.
    Dr. Honeck. Well, unemployment is a complicated system. It 
has been built up over a period of decades. It is a number of 
different issues. It was built for a situation where people 
were working full-time in steady jobs, one breadwinner. And my 
fellow panelist's case, it sounds like the issue is severance 
payments that are made after the last day of work under Ohio 
law get then counted against UI payments. That is one set of 
problems.
    There is another set of problems in the State with monetary 
eligibility. A person has to make $206 a week, average $206 a 
week for a period of about 20 weeks in what is called a base 
period over a year. And someone who was making $10 an hour, 20 
hours a week will not qualify, won't hit that.
    Someone who is making minimum wage, working full-time or 
almost full-time, won't make that, even though the employer is 
making payments on that individual's behalf. So, nationally, 
what is called the recipiency rate for unemployment is about 37 
percent. In other words, only a little over a third of all the 
people who are unemployed are actually getting covered.
    Senator Brown. What is the historical number, 20? Say, in a 
recession in the late 1950s or recessions of the 1970s? Were 
those numbers similar? Is it historical?
    Dr. Honeck. I don't have those numbers at my fingertips. 
But I would say that it has gone down over time. It has 
slipped.
    Senator Brown. Is it because we have a less traditional 
economy now, or are there other reasons?
    Dr. Honeck. Part of it, I would say, is just less 
traditional economy and, as I said, just the way we treat 
monetary eligibility. I think the monetary eligibility 
requirement goes up every year, and the wages of large sectors 
of our economy do not.
    The minimum wage, we passed a constitutional amendment 
here, but for years, Federal minimum wage didn't go up. State 
minimum wage didn't go up. The people who were working full-
time but at minimum wage weren't then becoming eligible.
    Senator Brown. Let me shift to TAA. In your testimony, you 
said the TAA application process should be reformed rather than 
the cumbersome workplace-by-workplace approach. It is time to 
recognize that in some sectors of the economy the loss of 
market share has been so pervasive that a sector-wide 
certification process should be contemplated.
    Talk about that, and then talk about do you relate it to 
manufacturing or the service sector? Do you connect it only to 
trade with all the job loss from NAFTA, PNTR, and CAFTA, and on 
and on?
    How do we structure TAA? How do we structure workforce 
investment in the months ahead?
    Dr. Honeck. Well, with TAA, it generally has been the 
preferred route for unemployed workers because it provides 
extended income support. It provides tuition assistance. There 
is a healthcare tax credit involved as well. But the 
application process has been somewhat cumbersome.
    It seems that the Department of Labor probably hasn't 
invested enough resources to do accurate certifications in the 
first place. So you see a lot of reapplications and reappeals, 
basically. The Department of Labor has been taken to task by 
the Court of International Trade, where a lot of these appeals 
end up, for not doing a thorough job.
    What I am saying is that when you see, let us take 
textiles, for instance. When you see just pervasive loss of 
market share, almost any shutdown in the industry is going to 
be related in some way to trade. And it is rather than having 
people apply company by company and risk--frankly, risk the 
situation that occurs sometimes where a lot of smaller 
companies aren't even aware of it. While the union companies, 
the unions are aware of the program, and they make an effort to 
sort of shepherd their members through the process, but a lot 
of smaller companies will slip through the cracks.
    Let us take a look at how we make people eligible, and 
instead of tying it, in fact, to particular trade deals, let us 
just look at--whether that is CAFTA or NAFTA or whatever, let 
us just look at international trade in general and say, you 
know, this is the bargain we are going to strike with American 
workers that if we have a certain trade policy that undermines 
their employment, it may undermine their community, let us make 
it easier to apply.
    Senator Brown. Thank you, Mr. Honeck.
    Ms. Edwards, your thought on TAA and some of the comments 
Mr. Honeck made?
    Ms. Edwards. I said at the beginning I am not an expert in 
WIA or TAA. I just heard those for the first time about 6 
months ago. So I defer to Dr. Honeck about that.
    But my experience in doing the work on our sector strategy 
has been that it is difficult for people on both sides to 
understand all of the intricacies of the system--how to apply, 
how to access these funds, how to put people on these pathways 
and benefit from the dollars that are already there. So, for 
instance, taking a dislocated worker and understanding what 
pots of money they could be eligible for, assessing them so 
that they could advance their skills and making sure then that 
that education falls within all of the parameters and rules and 
regulations that come along with that funding.
    We have heard anecdotal stories of individuals where it 
takes them 3 years to get through a nursing program, for 
instance, but the funding cuts off in 2 years. And those are 
the types of scenarios that I have learned about.
    Senator Brown. You spoke about, as did Dr. Honeck, you had 
spoken about sectors. What are the sectors or clusters that you 
see emerging in southwest Ohio? What can we work around here?
    Ms. Edwards. The data that we have evaluated suggests 
aerospace research and development, of course, with Wright-
Patterson Air Force Base, information technology, healthcare 
and human sciences, and advanced manufacturing.
    Senator Brown. OK. Slow down. OK. Aerospace----
    Ms. Edwards. Aerospace R&D, research and development. 
Information technology, healthcare and human science, and 
advanced manufacturing.
    Senator Brown. How many of those sort of connect with 
Wright-Patterson, certainly aeronautics?
    Ms. Edwards. Certainly, everything would connect with 
Wright-Patterson. When you look at several of these areas with 
regards to even manufacturing, you find manufacturing and 
information technology in many different industries. 
Healthcare, with what is the BRAC, part of that mission will 
relate directly to healthcare. They are bringing people in, for 
instance, in the medical areas, physicians and clinical 
laboratory scientists, for example.
    Senator Brown. Is this community ready for BRAC, for the 
next BRAC round?
    Ms. Edwards. I would say we are trying. Are we ready? 
Meaning, do we have the individuals here right now?
    Senator Brown. Well, it is not ready. We are on track to 
where we need to be?
    Ms. Edwards. We are certainly identifying what we need to 
have in place. And some of the work that we are doing and the 
pathways that we are trying to create, we are hoping that we 
can produce the workforce that they need.
    Now one of the issues with the military is that they 
advertise their positions on USAJOBS. And so, while we may 
produce or may not produce the workforce that they need, they 
have said that they will be advertising and recruiting for 
those positions across the country.
    So that is another interesting issue for us as we try to 
prepare for that. Because as we talk to these individuals about 
the positions that are available or will be available because 
of the BRAC, we want to make sure that there are positions for 
them then at the time, 2011, when BRAC does happen.
    Senator Brown. I understand Montgomery County has been 
applying for a grant from DOL that you are in involved with. 
Can you----
    Ms. Edwards. The Regional Innovation Grant. That is 
correct.
    Senator Brown [continuing]. Can you give me an assessment 
of--partly similar to the question I asked the mayor--what we 
need to do to make that process work better in the next 
administration? Or do you not have any complaints about that?
    Ms. Edwards. Certainly, our experience with the RIG grant 
has been a bit frustrating in that it was our understanding 
that it would be a pretty short turnaround time. Our process 
started several months ago, and we didn't get very quick 
feedback from individuals. But then the feedback that we got 
was sometimes contradictory.
    In some respects, they wanted it to be a more direct grant, 
so we did focus on advanced manufacturing. Then we received 
input that it should be a broader grant. We were told to be 
specific. So we selected our regional, our nine-county regional 
area and defined that area, and they told us then that we 
should focus on a larger area.
    Now the Regional Innovation Grant is only an 18-month 
$250,000 planning grant. So, to focus on a larger region, it 
didn't seem to make sense for us at the time.
    Also one of the things that we were to be doing was to be 
identifying a regional economy, to be planning and 
understanding that regional economy. Some of the things that 
they were wanting us to do, there seemed to be an expectation 
that we already knew the answers to some of these questions.
    Senator Brown. Let me finish by asking one question of all 
five of you. I will start with the mayor, giving you no time to 
come up with this answer. What is the one or the two things 
that you would like, that you would want out of my office, that 
you would like to see the Federal Government do, if you could 
pick one or two things, other than save DHL--I guess that would 
be the one for you.
    But if you have something specific on what you think we 
should do to help this valley, help the Miami Valley, help 
Dayton?
    Mayor McLin.
    Ms. McLin. I think that one of the things would be that 
when we are applying for money and going through the process 
the answer comes sooner than later, and the other thing is that 
I really would like very much for your office to look into the 
formulas of how cities get money, especially like with the CDBG 
grants and when we are dealing with infrastructures and 
brownfields. If the process could be expedited, it would be so 
helpful.
    Senator Brown. Thank you, Mayor.
    Mr. Mead.
    Mr. Mead. Continue to do what you have been doing. You have 
been very good about supporting our cause and bringing our 
cause to light and taking it to the right people in Washington. 
Beyond that, we have not gotten a lot of information about, if 
this deal should go through and we end up on the street, what 
our options are, what is available to us as far as unemployment 
benefits.
    I have heard a lot of rumors about what we would be 
entitled to, but there is really nothing that is out there that 
we have had access to. Of course, our main goal recently has 
been focusing on souring this deal so it doesn't happen so we 
can continue to remain employed. So we don't know what the next 
step would be after that, if the worst were to happen.
    Senator Brown. Good point. We are trying to walk that line. 
So if we put too much discussion into what happens if we lose 
it, we obviously want to stay focused on doing all we can to 
save those jobs. We are looking at the other and talking to 
people, but we perhaps need to be a little more public, and the 
mayor and we will all work on that together. Thanks.
    We are talking to the Department of Labor, and they have 
somebody on the ground and all that. But that is a very good 
assessment. Thank you.
    Ms. Richardson.
    Ms. Richardson. I would just really like for you to look 
into and investigate more to help us out, the ones who already 
have had the buyout and the ones that is coming up, especially 
December 23 with truck and bus, looking into our unemployment 
benefits. Again, I have been gone 2 years, and I am still 
fighting to receive mine.
    Also, looking at possibly creating more jobs. I don't know 
where they are going to come from. But give us the resources 
that we need and the understanding so we can get on our feet 
and we can prosper for our families.
    Senator Brown. Thank you.
    Dr. Honeck.
    Dr. Honeck. Two different things. I will stay with the 
unemployment compensation theme. I think we ought to take a 
look at taking the deal that workers who are getting TAA are 
getting and think about offering that to most or all other 
dislocated workers. The opportunity to go to school for up to 2 
years, get income support, healthcare, tax credit, and really 
not limit people, in a sense, for a lot of folks to that 6 
months of getting unemployment, and then they have got to go 
take a job.
    The other thing is job creation. I think one real 
opportunity that we have is in the field of green energy. If 
you look at what has happened in Europe, in Germany and other 
places, they have created hundreds of thousands of jobs, 
manufacturing wind turbines or energy efficiency products. A 
lot of those products, the profile fits with what Ohio can make 
and is making.
    There are companies in Ohio who are already in the wind 
turbine supply chain. But the opportunity is not just going to 
come to us. We have to reach out and take it. I am sure you 
heard the story of the two plants in Pennsylvania that went in 
from I think a Spanish company to make wind turbines, and they 
actually converted in one case a factory that had been 
shuttered and took some of the workforce, union workforce and 
put them to work making those products.
    We have an opportunity, but we have got to be organized and 
strategic about it.
    Senator Brown. Ms. Edwards.
    Ms. Edwards. We certainly have an opportunity with what is 
happening with BRAC and taking advantage of that. When we look 
at what is coming with BRAC, we have research and development, 
and what the research indicates there is that manufacturers 
like to be located by research and development.
    In saying that, I believe it was Dr. Honeck who commented 
that individuals are no longer looking to manufacturing as a 
career choice. And so, how are we going to communicate that to 
the population that there may well still be jobs, careers, and 
futures in the area of manufacturing? Certainly, the 
legislation, the SECTORS legislation, work like that 
contributes to our future as well.
    Senator Brown. Thank you.
    On a positive note, I appreciate the comments of the last 
two, particularly on where we're going. Yesterday Governor 
Strickland and I were in Perrysburg, OH near Toledo at an 
expansion of a company called First Solar. They have 700 jobs, 
they are adding 150 jobs over the next year or so. They are the 
largest solar energy manufacturing company in the country. The 
governor spoke for a little while, and I spoke for a little 
while, not very long there--I just took people on a tour around 
Ohio, of what is happening in the State with alternative 
energy, and including what you have here with the National 
Composite Center, what Sinclair does, what Wright-Patterson 
does, and in Lake Erie where they are going to build wind 
turbines. It will likely be the first time there will be a 
field of wind turbines in any fresh water anywhere in the 
world.
    There are things happening in alternative energy all over 
the State. We have a terrific opportunity because we are both 
an agricultural State and a mature industrial State that we 
know how to build things and we can produce--obviously 
bioenergy because--biomass because of our agriculture. We can 
obviously build things in this State.
    We can build fuel cells, wind turbines, solar panels and 
have great opportunity there. The Federal Government finally 
passed last week what are called the tax extenders that will 
bring some permanence to the tax system and predictability so 
that investors will want to put capital into major projects 
like wind and solar and fuel cells, and I think that this State 
really is well positioned in every corner of this State, 
including Miami Valley, for manufacturing on alternative 
energy.
    It will really make this the Silicon Valley of alternative 
energy, and that is the goal. I think there is a lot of 
interest in doing that.
    Thank you all for joining us. Thanks to the panel. The 
hearing will technically remain open for 10 days. So anybody 
who wants to submit comments, they can do that, add to any of 
your testimony. The committee will officially take this. This 
will be the official record.
    So thank you all for being here. Thank you in the audience, 
and the committee is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Prepared Statement of Senator Enzi

    Thank you Senator Brown for holding this important field 
hearing today to address the needs of American workers and the 
role job training can play in strengthening and rebuilding our 
communities.
    I believe job training is critical to the success of our 
communities and Nation. Job training is important both to 
provide a skilled workforce to avoid closings and to assist 
workers who have become dislocated. That is why I helped author 
the reauthorization of the Workforce Investment Act (WIA) which 
creates a streamlined job training and employment system for 
our employers and workers. Unfortunately, the Workforce 
Investment Act (WIA) is 5 years overdue for reauthorization. 
The Senate passed a bipartisan WIA reauthorization bill in both 
the 108th and 109th Congress by unanimous consent. However, in 
this Congress a Senate reauthorization bill was not even 
introduced. Such inaction is unacceptable.
    Congress must renew and improve the Workforce Investment 
Act by building on its successes so that all Americans have 
access to education and training opportunities. The structure 
is already in place, we just need to refine the system to 
prepare our workers for the new careers of the 21st century. 
The fact is that we don't even know what the high wage, high 
demand, high skill careers will be in the next decade. The 
skills for today's jobs are not the skills needed for 
tomorrow's jobs--everyone must have the opportunity and access 
to training and education that will keep them successful in a 
rapidly changing work environment.
    We face many challenges today. Today, an estimated 85 
percent of jobs are classified as ``skilled'' jobs, compared to 
only 15 percent of jobs classified as ``skilled'' jobs in 1950. 
From 2004 to 2014 the numbers of jobs in the U.S. economy is 
expected to grow by 13 percent, those jobs requiring at least 
some college will grow the fastest. By some estimates, nearly 
four out of every five new jobs being created will require some 
education or training beyond high school which is why it was 
critical that Congress passed the Higher Education Opportunity 
Act which we had been working on for 5 years!
    In order to meet these challenges head on, we must work 
with our businesses--big and small--to make sure they have the 
highly skilled workforce they need to be successful in the 21st 
century global economy. Additionally, our workers need more 
opportunities to grow their skills and our businesses deserve a 
high quality, highly skilled workforce.
    Over the past 4 years we have been able to reauthorize Head 
Start, career and technical education programs and higher 
education. We are working on high school reform to make sure 
that more of our students graduate on time with the knowledge 
and skills they need to be successful in college and the 
workforce without remediation. We need to get the 
reauthorization of the Workforce Investment Act done so that 
everyone throughout life has access to the education and 
training opportunities they need to be successful. Once again I 
urge the Senate leadership to take up reauthorization of the 
Workforce Investment Act (WIA), it is past time for the Senate 
to get serious about workforce development and job training and 
take action on this important legislation.
    [Whereupon, at 4:35 p.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
